<html>
<title> - GAO'S 2019 HIGH RISK REPORT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                      GAO's 2019 High Risk Report

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 6, 2019
                               __________

                           Serial No. 116-06
                               __________

      Printed for the use of the Committee on Oversight and Reform
      
            
      
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
               

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.govor
                        http://www.docs.house.gov
                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-061 PDF                 WASHINGTON : 2019                         
                        
                        
                        
                   
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
    Susanne Sachsman Grooms, Deputy Staff Director and Chief Counsel
          Elisa LaNier, Chief Clerk and Director of Operations
                Russell Anello, Chief Oversight Counsel
                  Marc Broady, Counsel/Policy Advisor
            Laura Rush, Deputy Chief Clerk/Security Manager
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                      
                      
                      
                      

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2019....................................     5

                                Witness

Gene L. Dodaro, Comptroller General of the United States, 
  Government Accountability Office
    Oral Statement...............................................     9

                           Index of Documents

                                                                   Page
    Written Statement of Gene L. Dodaro..........................    60
    Letter from Thomas H. Armstrong, General Counsel, GAO to 
      White House Counsel, submitted by Chairman Cummings........   130

 
                      GAO'S 2019 HIGH RISK REPORT

                              ----------                              


                        Wednesday, March 6, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:39 p.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Clay, 
Lynch, Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, 
Wasserman Schultz, Kelly, DeSaulnier, Plaskett, Gomez, Ocasio-
Cortez, Pressley, Tlaib, Jordan, Amash, Meadows, Hice, 
Grothman, Comer, Cloud, Gibbs, Higgins, Norman, Miller, Green, 
Armstrong, and Steube.
    Chairman Cummings. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    The full committee hearing is convening to review the GAO 
2019 high risk report.
    I now recognize myself for five minutes.
    Good afternoon. Today, the committee is pleased to welcome 
Gene Dodaro, the Comptroller General of the United States and 
head of the Government Accountability Office.
    Mr. Dodaro is here to discuss GAO's high risk report. GAO 
issues this report at the beginning of each Congress to 
highlight programs that are most vulnerable to waste, fraud, 
abuse, and mismanagement. The high risk report also recommends 
solutions to save taxpayer funds, improve public services, and 
hold our government accountable.
    Over the past 13 years, improvement to high risk programs 
have saved us nearly $350 billion, or about $27 billion a year. 
Improving high risk programs can have a very real effect on 
Americans' lives. If implemented correctly, this year's 
recommendations would improve healthcare for veterans, protect 
Americans from toxic chemicals, make our food safer, and help 
stem the deadly tide of opioid addiction, which we will be 
addressing tomorrow.
    And, Mr. Dodaro, I want to thank you from the bottom of my 
heart, and I want to thank all the people that are here with 
you and those that in your office for all the hard work that 
you do in a very nonpartisan way and the professionalism that 
you all bring to the job. We know that when you issue a report, 
you dot your i's, you cross your t's, and you give us 
information that is indeed usable. And so, on behalf of a 
grateful Congress, I thank you.
    Today, we will discuss many issues, and I'd like to 
highlight a few. And I want you to listen up, because this is 
important information.
    First, inaction on climate change. Perhaps the most 
concerning issue in this year's report relates to climate 
change. According to this report, the Trump administration, and 
I quote--I didn't say this; GAO said this--``has not made 
measurable progress since 2017 to reduce its fiscal exposure to 
climate change and, in some cases, has revoked prior policies 
designed to do so,'' end of quote.
    Instead of confronting this existential threat with science 
and ingenuity, the President is denying the threat and the 
problem exists and it continues. He revoked President Obama's 
Climate Action Plan and is now creating a new White House panel 
to counter the idea that burning fossil fuels is harming the 
planet.
    Inadequate strategy for cybersecurity. Today's report also 
warns that the Trump administration lacks a comprehensive 
strategy to address cybersecurity threats across Federal 
Government.
    Inexplicably, the President eliminated the Cybersecurity 
Coordinator position at the White House last year--these are 
the facts--leaving our Federal Government without any White 
House leader devoted to protecting us with regard to 
cybersecurity.
    The GAO report calls on Federal agencies to take, quote, 
``urgent actions,'' end of quote, to address this threat, which 
could affect our Nation's most closely held secrets, our energy 
grid, our banks, our communications systems, and nearly every 
aspect of Americans' lives.
    Today's report also warns that the Trump administration, 
quote, ``has not established measures to ensure the quality of 
background investigations and adjudications,'' end of quote, 
for security clearances and faces--listen to this one--and 
faces a current backlog of 565,000 security clearance 
applications. Let that sink in.
    Instead of fixing these problems, the President, 
unfortunately, has undermined the security clearance process. 
According to recent reports, he ignored the concerns of his own 
White House advisors, career national security officials, to 
give his son-in-law, Jared Kushner, a security clearance.
    Today's report also highlights the risks facing the 
upcoming census, which is of special interest to our committee. 
The report highlights the rising costs, hundreds of unresolved 
security weaknesses, a scaled-back testing under the Trump 
administration that, quote, ``increases the risk that 
innovations in IT systems will not function as intended during 
the 2020 census,'' end of quote. I didn't say that; GAO said 
it.
    Today's report also highlights the epidemic of drug 
addiction in this country, which is one of this committee's 
highest priorities.
    According to the Centers for Disease Control and 
Prevention, 70,000--70,000 people--the number of people that 
will fit into Ravens stadium in my district--70,000 Americans, 
died from drug overdoses in 2017. About 191 people die every 
day in this country.
    Yet the President had no--no--national drug control 
strategy or White House Drug Czar for the past two years. The 
GAO has identified this as a, quote, ``emerging issue requiring 
close attention,'' end of quote.
    We're holding a hearing on this topic tomorrow with the 
Director of the Office of National Drug Control Policy and 
experts from GAO.
    Today's report provides a roadmap for improving our Federal 
Government, but GAO's recommendations can be turned into 
effective reforms only with the cooperation and leadership from 
the President and executive branch agencies. Unfortunately, 
President Trump and the White House have refused to even 
cooperate with GAO--refusing to cooperate with them--so they 
can get--I want you to talk about that, because that's 
important.
    If we can't get information, we can't do our job. If we 
can't get information, we can't hold the executive branch 
accountable, which we have sworn to do and which is mandated 
under the Constitution of the United States of America.
    Last year, GAO sent an extraordinary letter to the White 
House Counsel expressing concern that White House officials 
quote--listen to this--``would not respond to inquiries or 
otherwise engage with GAO staff during the course of our 
reviews.'' Wow. The letter noted, and I quote, ``This approach 
represents a clear departure from past practice,'' end of 
quote.
    Nevertheless, the obstruction has continued. Last month, 
GAO issued a report finding the President spent $13.6 million 
of taxpayer money on trips to Mar-a-Lago. The White House 
refused--refused--to provide any information to assist with 
GAO's review.
    The GAO is part of the legislative branch, and the White 
House refusing to cooperate with GAO's request is an insult to 
this Congress. We will be following up directly with the White 
House, of course.
    I look forward to hearing today from Mr. Dodaro on each of 
these issues and many others. I also look forward to continuing 
to work closely with GAO and our colleagues to hold our Federal 
Government accountable to the American people.
    And, with that, I yield to the distinguished ranking member 
of our committee, Mr. Jordan of Ohio.
    [Prepared Statement of Chairman Cummings is available on: 
follows: https://oversight.house.gov/legislation/hearings/gaos-
2019-high-risk-report]
    Mr. Jordan. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    Mr. Dodaro, good to see you again. You've been here 
numerous times over the years, and we appreciate your work and 
you taking the time to brief us today.
    The purpose of today's hearing is to examine government 
programs that the Government Accountability Office has 
determined as, quote, ``high risk''--that is, programs that are 
faulty and risk substantial loss of taxpayer money.
    ``Substantial'' means at risk of losing at least a minimum 
of $1 billion. That certainly is a lot of money, but it is 
still an out-of-date figure. There are so many big government 
programs that now meet this threshold that GAO cannot solely 
rely on that criteria.
    This topic is at the core of this committee's mission. It 
is oversight of Federal dollars and the examination of 
mismanagement by the government.
    As you have said before, Mr. Chairman, this committee 
should focus on the issues that affect the American people 
every single day, not those that only serve to fill campaign 
war chests. What we have gathered here today to discuss is just 
that--examples of waste, fraud, and abuse that affect everyday 
Americans.
    The list should be our marching orders. Thirty-five 
examples of government inefficiency. Unfortunately, many of 
these are not new to us. Five who have been included on the 
list since its conception in 1990. There are some agencies that 
just--they got on and they have never got off.
    Overall, only 26 programs have ever been removed. 
Congressional oversight is the central theme to success, and 
congressional oversight has led to over $350 billion being 
saved over the last decade.
    It's not as if it is extremely difficult for a program to 
be removed from the list. GAO clearly outlines what needs to be 
done to achieve their objective. And this hearing should help 
us better understand these recommendations to ensure programs 
are removed.
    With hundreds of recommendations still open, it is clear 
that the convoluted and extensive bureaucracy accepts the 
status quo. Agencies and Congress must do better, and there is 
much to be done.
    Progress has been palpable since the new administration 
took office, especially at the Department of Defense. Two DOD 
programs were removed, including one, supply chain management, 
that had been on the list since 1990. So there's one who made 
it. Been there forever in our Defense Department and now no 
longer on the high risk list.
    Supply chain management is simply knowing how much stuff to 
buy and where it is. This has been an issue for 30 years. 
Removing this is an impressive step for this administration and 
will lead to a safer, more secure, and more efficient military.
    In the past two years, another three DOD programs have 
improved, and I am encouraged by these improvements, but I'm 
also aware that this is just the beginning. Federal agencies 
continue to mismanage and waste money of hardworking Americans 
that we all get the privilege of representing.
    Finally, I look forward to our discussion today and 
continued progress, but I'd also point out that I think this is 
exactly what this committee is supposed to do. Even though 
we've taken ``government'' out of the name of the committee, we 
are supposed to provide oversight of government agencies. This 
goes to the heart and the soul and the core of what the 
Oversight--Government Oversight Committee is supposed to be 
doing.
    So, Mr. Chairman, again, I thank you for having us here 
today, and, Mr. Dodaro, for your testimony.
    And, with that, I yield back.
    [Prepared Statement of Mr. Jordan is available on: https://
oversight.house.gov/legislation/hearings/gaos-2019-high-risk-
report ]
    Chairman Cummings. Thank you very much.
    Now I want to welcome the Honorable Gene Dodaro, and I want 
to thank him again for participating in today's hearing.
    Comptroller General Dodaro, if you and your staff would 
please rise, I will begin by swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you very much. You may be seated.
    Let the record show that the witnesses answered in the 
affirmative.
    I want to thank you very much. The microphones are 
sensitive, so please speak directly into them. Without 
objection, your written statement will be made part of the 
record.
    With that, Comptroller General Dodaro, you are now 
recognized to give an oral presentation of your testimony.

 STATEMENT OF THE HON. GENE L. DODARO, COMPTROLLER GENERAL OF 
      THE UNITED STATES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good 
afternoon to you, Ranking Member Congressman Jordan, members of 
the committee. It's a pleasure to be here to discuss the latest 
update to GAO's High Risk List.
    This high risk program continues to be a valuable 
congressional tool for oversight and produces tangible benefits 
for the American people, as both, Mr. Chairman, you and Ranking 
Member Jordan outlined in your opening statements.
    I'm pleased to report that, of the 35 areas, 7 have made 
progress since our last update in 2017. Four of the seven, 
Congressman Jordan, were DOD areas. I'm pleased with the 
management team over there. They're doing a good job addressing 
some of these issues.
    Two have progressed far enough for us to take them off the 
list. DOD supply chain management. As a result of improvements, 
there are millions of dollars being saved now in inventory 
management, asset visibility, material distribution. And it's 
improved DOD's ability to carry out its mission, because it 
needs to have the supplies at the right time at the right place 
to do a good job.
    The other area is mitigating gaps in weather satellites. We 
were very concerned about this years ago because it would 
diminish the ability to get long-term and short-term weather 
forecasts, which are so necessary to protect life and property.
    As a result of being on the High Risk List and actions 
taken by the Congress, NOAA has launched a new satellite, and 
it's already operational, and it's producing better weather 
information than what we've had before. And DOD, which operates 
the other polar orbiting satellite, is scheduled to release a 
new satellite within the next couple years. So this is back on 
track.
    Now, unfortunately, many of the areas on that 35 list 
haven't really changed that much since our last update in 2017. 
There have been some improvements but not enough to change the 
rating against our five criteria for coming off the list, which 
are leadership commitment, the ability to have the capacity, 
the resources, and the people, have an action plan with 
milestones and measures to do a monitoring effort, and actually 
demonstrate some progress in that area.
    Three areas have regressed, which we're concerned about. 
One is NASA's acquisitions. Second is EPA's assessments of 
toxic chemicals. And the third is limiting the Federal 
Government's fiscal exposure by better managing climate-change 
risk.
    Now, we have added two areas in the update. One is 
governmentwide personnel security clearances, as has been 
mentioned. We added that in January 2018, and at that time the 
backlog was 700,000. So the backlog has been lowered to 565,000 
now, so we're making some progress in that regard.
    Second, what we're adding today is the acquisition programs 
at the Veterans Administration, their outdated policies and 
practices. They haven't been able to save a lot of money. It's 
one of the largest procurement budgets in the government. Many 
purchases are being made under emergency situations when they 
should be able to more routinely identify what kind of medical 
supplies and services that they need for the hospital. So 
that's an important area.
    There are a number of areas that I want to single out for 
this committee that I think are very important.
    One is the Pension Benefit Guarantee Corporation. The 
multi-employer portion of that pension system is likely to be 
insolvent by 2025. That means about 11 million Americans will 
only be able to likely receive $2,000 a year for a pension. 
This is not adequate, so that's a big problem.
    Second is the Federal role in housing finance. Fannie Mae 
and Freddie Mac are still under Federal conservatorship from 
the global financial crisis. Ginnie Mae's portfolio now is over 
$2 trillion. The FHA portfolio is $1.2 trillion. A lot of 
lending now is made by non-banks, which are not very well 
regulated, and all the risk has moved to the Federal 
Government. Seventy-one percent of the loans now for individual 
mortgages are supported by the Federal Government either 
directly or indirectly.
    Cybersecurity needs to be addressed. We did a special 
update last year, and we testified before two subcommittees of 
this committee on the urgent actions that are needed to be 
required in that area.
    Veterans' healthcare remains a problematic area, as well as 
a lot of improper payments across Medicare, Medicaid; the 
earned income tax credit; and, of course, the tax gap, which is 
very significant.
    So I thank you for the opportunity to be here, Mr. 
Chairman, and I look forward to answering all your questions.
    [For Prepared Statement of Mr. Dodaro, see Appendix:]
    Chairman Cummings. Thank you very much.
    I will now yield to Mr. Rouda for five minutes.
    Mr. Rouda. Thank you.
    Mr. Dodaro, I wanted to ask you about one of those most 
important issues addressed in the GAO's high risk report, 
climate change.
    Over the past two years, the U.S. Global Change Research 
Program released its ``Fourth National Climate Assessment,'' 
which is the Federal Government's definitive statement on 
climate science. Volume I of the assessment confirmed that 
climate change is real, it is happening now, and humans are the 
primary cause.
    Volume II looked at the serious impacts of climate change 
and projected that rising temperatures, flooding, and extreme 
weather caused by climate change will result in economic losses 
of, quote, ``hundreds of billions of dollars by the end of this 
century,'' unquote.
    Mr. Dodaro, do you agree that climate change is occurring?
    Mr. Dodaro. Our work relies on the Global Climate Change 
Research Program and the National Academy studies that have 
occurred that have concluded that climate change is having a 
significant effect on the economy and on environmental issues. 
And based on the result of that, that's one of the reasons we 
added it to the High Risk List.
    But our focus is on limiting the Federal Government's 
fiscal exposure to climate change. You know, since 2005, the 
Federal Government's had to outlay close to half a trillion 
dollars to recover from disasters. We believe there needs to be 
more focus on adaptation and resilience-building in the first 
place to mitigate these substantial disasters.
    Mr. Rouda. So talk about that in twofold: one, the cost of 
doing nothing, if you can talk a little bit about that----
    Mr. Dodaro. Sure.
    Mr. Rouda [continuing]. and the cost of actually doing 
something. Because my sense is it costs a lot less to do 
something versus doing nothing.
    Mr. Dodaro. The cost of inaction is sort of incalculable, 
but it's very high. Let me put it that way.
    The National Institute of Building Sciences has estimated 
that, for every dollar spent on hazard mitigation and 
resilience-building, it will save $6 down the road. It also 
estimates every dollar spent to institute new international 
building code requirements could save $11 down the road. So, 
clearly, there's a lot of evidence to say that if you provide 
more money up front.
    We've seen that very recently in the hurricanes that 
happened in 2017, and you see the difference between what 
happened to Florida compared to Puerto Rico. Florida was well-
prepared. They had built a lot of resilience efforts in over 
the years. Puerto Rico really had not done that. And the 
devastation was, you know, almost complete in Puerto Rico, 
where Florida was able to recover, you know, with difficulty, 
obviously, but it makes a real difference.
    With disasters predicted to be more frequent and more 
severe, the Federal Government needs to do this. That's why we 
put this on in 2013.
    Mr. Rouda. Okay.
    The Department of Defense has identified climate change as 
one of the top threats. And I'd like to ask you, how is climate 
change impacting our national security?
    Mr. Dodaro. Well, it's twofold.
    One is that it is affecting DOD's own operations, both 
domestically and internationally. You know, a lot of their 
facilities are in coastal areas, and with rising sea levels, it 
poses difficulties. They've already had some experiences. The 
Hurricane Florence in 2018 caused over $3 billion of damage to 
Camp Lejeune in North Carolina. Hurricane Michael caused the 
Air Force base down there over $3 billion in damage. So it's 
affecting DOD right now.
    The other aspect, though, from the national security 
standpoint is how it might be changing global migration 
patterns and how droughts and other things might be 
destabilizing factors as it relates to the social and economic 
and political status of countries----
    Mr. Rouda. Right.
    Mr. Dodaro [continuing]. which could then create some 
national security concerns.
    Mr. Rouda. Yes, there are some suggestions that if we do 
not combat climate change, at the current rate, that there will 
be 200 million climate-change refugees by the year 2050, the 
largest mass migration of human beings since World War II.
    Let me ask you also about--as you know, we are the only 
country now not part of the Paris climate accord. And President 
Trump is apparently trying to set up a new White House panel, 
led by a climate denier, to counter the clear findings of the 
National Climate Assessment and National Threat Assessment.
    Do you think that the White House panel that denies climate 
change will help the Federal Government better manage climate-
change risk?
    Mr. Dodaro. Well, you know, we do our work based on facts. 
And this group hasn't met yet, and I don't know really much 
about it, so I, you know, reserve judgment until they produce 
something. The President certainly has a right to get advise 
from whoever he chooses. But there's a lot of studies already 
done by the Federal Government and the National Academy of 
Sciences. And so, you know--but I'll reserve judgment until 
they produce something.
    Chairman Cummings. The gentleman's time has----
    Mr. Rouda. Okay. For the sake of America and the rest of 
the country, thank you.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Before I get to my questions, I'd like to just take a 
moment, Mr. Chairman, to personally say thank you. I think we 
had a pretty contentious hearing last week, and I just want to 
say thank you for your leadership and how you led this 
committee with fairness and reasonableness.
    Particularly as it related to Mr. Meadows, I just 
appreciate the way you handled that and really set a standard 
for this committee to deal with issues and not personalities. 
And I just felt it appropriate to publicly say thank you for 
your leadership in that regard.
    Mr. Dodaro, thank you again for your leadership as well. 
It's always good to see you. Appreciate all that you do for the 
American people.
    As you well know and mentioned a while ago, this committee 
has been active in the past dealing with cyber issues and the 
OPM and Equifax and all these types of issues that we've had.
    In July of last year, we had a hearing with you about an 
interim high risk update on Federal cybersecurity, and we 
discussed in the nature of the cyber threat and the role of the 
U.S. Computer Emergency Readiness Teams.
    Just curious how that is going, if we're seeing 
improvements.
    Mr. Dodaro. Yes, I'd like to bring up Nick Marinos, who's 
our cybersecurity expert in that area.
    You know, still, there's a lot of room for improvement in 
this area. I'm very concerned about it. The actions might have 
been being taken, but they're not being addressed with the 
sense of urgency I believe is needed.
    But Nick can give you details, Congressman.
    Mr. Hice. Okay.
    Nick?
    Mr. Marinos. Mr. Congressman, I think we would say that, 
you know, as mentioned in our update last year, one of the four 
challenges that we highlighted was the important role and 
responsibility that Department of Homeland Security has for 
organizing Federal Government efforts to protect their systems 
from cybersecurity threats.
    We have seen some progress, for example, in addressing many 
of the recommendations that we've made. We've made nearly 3,000 
recommendations over the last 10 years related to cybersecurity 
issues. We've seen that number come from 1,000 down to 700. But 
that still represents a very substantial amount of work that 
has to be done.
    Mr. Hice. So what is the holdup? Who's best to answer that? 
I mean, what's going on? Seven hundred, like you said, is still 
a lot. What's the issue?
    Mr. Dodaro. I just don't think there's enough management 
attention at the top levels of the departments and agencies of 
the Federal Government and across Federal Government to deal 
with this.
    There are a lot of plans that are put in place--and I want 
to commend the administration; they've added some national 
strategies--but there's no detailed implementation plans of 
what kind of milestones, when are we going to have these fixes, 
how can we tell if we're making progress, what are the 
resources needed in order to address these issues.
    You know, I put cybersecurity on the governmentwide High 
Risk List, first time we ever said anything governmentwide, in 
1997. I mean, I've been on this quest for a long time.
    We've expanded it to critical infrastructure protection, as 
the chairman mentioned, electricity grid, the markets. I mean, 
we have a big issue. Congress also needs to pass comprehensive 
privacy legislation, which we've recommended as well.
    But in the Federal departments and agencies, year after 
year after year, there are the same material weaknesses in 
their information technology systems. Now, a lot of this is--a 
millstone around their neck--a lot of legacy systems. Of the 
$90 billion every year spent on IT, 75 percent of it goes to 
support legacy systems. I mean, some of these systems have been 
around since the 1960's and 1970's, and so they inherently have 
vulnerabilities that address them. So we have to replace the 
legacy systems.
    This committee's had some leadership in that area and the 
modernization fund. Now they have working capital funds with 
the intention of replacing legacy systems. And this committee's 
been focused on trying to make sure chief information officers 
have the proper authorities.
    Mr. Hice. I share your concern. We have Fort Gordon, the 
Cyber Command headquarters, in our district, and this has 
become a huge issue to me as well.
    Regarding, something a little different, the IRS dealing 
with so much sensitive taxpayer information, what's the latest 
on that front?
    Mr. Dodaro. Do you know?
    Mr. Marinos. With respect to the taxpayer information?
    Mr. Hice. And the cybersecurity issue, the threat that's 
there.
    Mr. Marinos. With respect to IRS's own systems, we continue 
to see deficiencies as we do our annual evaluation of their 
financial statement activities.
    And we recognize that taxpayer information represents a 
very important element in performing IRS's mission. It's 
personal information about every individual, and so it 
represents a significant risk. And so it does require IRS to be 
very careful with the actions it takes with respect to that 
data.
    Chairman Cummings. Thank you very much.
    And, Mr. Hice, I thank you for your kind words. I really 
mean that.
    Mr. Dodaro, I'm going to ask you a few questions.
    GAO is an extension of Congress. You are Congress's 
investigative arm. Is that right?
    Mr. Dodaro. That's correct.
    Chairman Cummings. And we rely on you to do thorough and 
detailed reports and investigations like the one we are 
discussing today.
    But your work and, by extension, our work is frustrated 
when you did not get the cooperation you need. So I want to ask 
you about multiple refusals by the Trump White House to respond 
to GAO's legitimate requests.
    I have a letter here that was sent from the General Counsel 
at GAO, Thomas Armstrong, to the White House Counsel, Don 
McGahn. This letter was sent on May 9, 2018. It says this, and 
I quote:
    ``I write to express concern about the policy of certain 
White House officers regarding communication with the 
Government Accountability Office. Specifically, I understand 
that attorneys from your office and the National Security 
Council will not respond to inquiries or otherwise engage with 
the GAO staff during the course of our reviews. This approach 
represents a clear departure from past practice,'' end of 
quote.
    Mr. Dodaro, I've been on this committee for 23 years now, 
and I've never seen a letter like this. Why did you--why did 
the GAO send this letter?
    Mr. Dodaro. Well, you know, typically, our work involves 
examining government programs and agencies, and, generally, we 
get good cooperation in conducting about 800 audits a year for 
the Congress.
    Historically, you know, from time to time, we have to 
contact the White House in a few instances. And, generally, 
over the years, historically, while we didn't always get 
cooperation from the White House staff, we at least were able 
to have good communications with them.
    In this case, you know, they were clear from the beginning 
they weren't even going to talk to us about these issues. And 
so we were very concerned that we were not at least having 
lines of communication where we could try to work out some 
accommodations.
    Now, since we sent the letter, we've continued to have 
conversations with them, and we made some headway in dealing 
with the National Security Council. We actually have a meeting 
next week to talk to them about a current review. We're looking 
at the International Atomic Energy Administration. And a couple 
other instances, National Security Council has, you know, 
agreed to give us some information.
    But the White House Counsel's Office has not. We'll 
continue to talk with them on an as-needed basis going forward 
and enlist the support of Congress.
    Chairman Cummings. Let me switch to another example. Last 
month, you issued a report that I requested with Representative 
Speier. You reported that President Trump spent $13.6 million 
of taxpayer money in just his first four trips to Mar-a-Lago.
    However, in that same report, GAO also said this, and I 
quote: ``We contacted White House Counsel's Office in April 
2017 and January 2018 to solicit information from the Executive 
Office of the President related to coordinating travel for the 
President and any costs associated with White House staff 
traveling with the President. As of January 2019, the White 
House had not responded to our request for information.''
    Is that what your report said?
    Mr. Dodaro. Yes.
    Chairman Cummings. You also issued another report I 
requested on security protocols at Mar-a-Lago. Your report 
said: GAO contacted the White House Counsel's Office in May 
2017 and January 2018, but--and I quote--as of January 2019, 
the White House Counsel's Office had not responded to our 
request for information.
    So GAO tried to reach the White House for almost two years 
about these reports and received no response?
    Mr. Dodaro. That's correct.
    What I also, though, did with the--I asked the teams to 
make sure we sent the draft reports over there, you know, once 
we complete our work at the agencies. And we got a lot of the 
information we needed from the agencies.
    There are two parts of this. One, you know, the White House 
is not taking advantage of the opportunity to give us their 
perspective on these issues and any relevant information.
    But even though they didn't give us the information, I made 
sure they had an opportunity to comment on the draft reports, 
thereby giving them a last chance to give us additional 
information if they, you know, felt compelled to do it. And 
they received the drafts. They took custody of the drafts, but 
they didn't provide any comments on the draft reports. But I 
didn't want them surprised.
    You know, we're going to follow our procedures and be fair 
and nonpartisan in our approach, but we did not receive any 
information.
    Chairman Cummings. Did that surprise you?
    Mr. Dodaro. Yes. Although, in all fairness, I mean, we've 
had problems in prior administrations when it comes to the 
White House. I mean, there's just a unique set of situations 
there.
    But what surprised us this time was, you know, not even 
want to have discussions. You know, in the past, we've at least 
had discussions. Sometimes they've been contentious 
discussions. But, you know, we usually are able to work through 
things. But, in some cases, you know, the White House didn't do 
it.
    I mean, our most famous instance is when we actually sued 
Vice President Cheney to get information years ago. Now, we 
didn't prevail on that, but, you know, these things occur. But 
at least in that case, they were talking to us. You know, in 
this case, there hasn't been any, you know, meaningful 
contributions.
    Although, I am, as I said earlier, you know, pleased that 
we've, at least with the National Security Council--because 
they have responsibilities now for coordinating cybersecurity. 
So if we can't get information from them about how they've 
taken over the responsibilities from the Cybersecurity 
Coordinator position that was eliminated, we're not going to be 
able to inform the Congress on how this administration is--
clarify its roles and responsibilities in cybersecurity. I will 
be very concerned about that.
    Chairman Cummings. Okay.
    Since President Trump took office, about how many times has 
GAO requested information from the White House Counsel's 
Office?
    Mr. Dodaro. Five. Five times. Five different audit 
engagements.
    Chairman Cummings. And as of today, has GAO received 
information from the White House Counsel's Office in response 
to any of those requests?
    Mr. Dodaro. No.
    Chairman Cummings. Very well.
    My time is up. I yield now to the ranking member.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Dodaro, have previous Presidents traveled as well?
    Mr. Dodaro. Yes.
    Mr. Jordan. Yes, many times, back to their hometown or 
wherever.
    I mean, the chairman talked about--I think the figure you 
gave was $13 million that President Trump has spent traveling 
to Mar-a-Lago. Do you have any idea how much President Obama 
spent traveling to Hawaii?
    Mr. Dodaro. We have those figures that I could provide----
    Mr. Jordan. How about President Bush when he went back to 
Texas?
    Mr. Dodaro. I'm not sure we did Bush. I know we did 
Clinton's travel.
    Mr. Jordan. Clinton when he went to Martha's Vineyard?
    Mr. Dodaro. Pardon me?
    Mr. Jordan. Clinton when he traveled to Martha's Vineyard? 
You probably got President Clinton when he traveled there?
    Mr. Dodaro. We had a request to look at--he had a trip to 
Africa, you know, years ago. So it's different kinds of trips. 
But I'd be happy to provide all those to the committee.
    Mr. Jordan. I just--the perception is that this is the only 
time it's happened, that someone traveled to their home or 
vacation spot. Previous Presidents have done this time and time 
again.
    Mr. Dodaro. That's correct. And we've done studies on most 
of the Presidents.
    Mr. Jordan. Can you define ``high risk'' for me? When you 
say ``high risk,'' define what that is.
    Mr. Dodaro. We have published criteria we put out in 2000 
which is----
    Mr. Jordan. Give me the shorthand version.
    Mr. Dodaro. But it's basically--I mean, you mentioned one 
of the elements we consider is more than a billion dollars at 
risk.
    Mr. Jordan. Right.
    Mr. Dodaro. But we also consider whether or not there's 
public safety, security issues, national security issues, 
homeland security issues, the potential impact on the economy. 
And so there's a lot of qualitative factors that we consider as 
well.
    We also consider whether the area's already receiving 
attention or not, and we try to focus our list----
    Mr. Jordan. On improvement. Yes.
    Mr. Dodaro [continuing]. on improvement----
    Mr. Jordan. Sure.
    Mr. Dodaro [continuing]. but focus attention on areas that 
are not getting a lot of attention.
    Mr. Jordan. Not getting a lot of attention, still faulty, 
haven't improved. Tell me those--I think you said there were 
five or six that have been on the list since 1990.
    Mr. Dodaro. Yes.
    Mr. Jordan. So since you've started this thing, some people 
started there and they have never got off.
    Mr. Dodaro. That's correct.
    Mr. Jordan. And who are those agencies?
    Mr. Dodaro. The ones I can recall off the top of my head--
and I'll get the complete list--is the Medicare program; tax 
administration issues have been an issue, both from an initial 
standpoint of the tax gap as well as now we added identity 
theft concerns; DOD weapons systems are on the list; and the 
other two are DOE, Department of Energy, contract management--
--
    Mr. Jordan. Yep.
    Mr. Dodaro [continuing].--and NASA----
    Mr. Jordan. Okay.
    Mr. Dodaro [continuing]. acquisition management.
    Mr. Jordan. Those are the five I had. But the first two are 
the ones that I think jump out to me. Because you got the IRS, 
which just about every single American has to interface with, 
you know, particularly this time of year for most families, and 
then you got Medicare, which is pretty darn important as well. 
And they have been on the list forever.
    And we got some folks in the Congress who want a big 
expansion of Medicare. In fact, they call it Medicare for All. 
And yet there's all kinds of improper payments and all kinds of 
problems, and that's been the case since 1990, right?
    Mr. Dodaro. There's been issues, yes. That's why they're on 
the list. Exactly right.
    Mr. Jordan. And what about the IRS?
    Mr. Dodaro. Well, the IRS----
    Mr. Jordan. This is largely the tax gap, right? People who 
owe taxes who aren't paying them, and----
    Mr. Dodaro. Yes.
    Mr. Jordan [continuing]. money due to the United States 
Treasury.
    Mr. Dodaro. Absolutely. The current estimate of the gap 
between taxes owed and taxes paid is about net tax gap of $406 
billion. That's an annual figure. So I've been very concerned 
about that. We think IRS----
    Mr. Jordan. What's the improper payment level--I'll come 
back to the IRS in a minute--the improper payment level on 
Medicare?
    Mr. Dodaro. It's $48 billion. $48 billion for this last 
fiscal year.
    Mr. Jordan. You're talking half a trillion dollars, right?
    Mr. Dodaro. Well, when you add----
    Mr. Jordan. When you add those two together.
    Mr. Dodaro. When you add all the--governmentwide, it's 
over----
    Mr. Jordan. I'm just talking about these top two programs.
    Mr. Dodaro. The top two programs are Medicare and Medicaid.
    Mr. Jordan. I'm talking about the IRS and Medicare, two 
that have been on the list since 1990. The tax gap at the IRS, 
and the Medicare faulty payments, those two total up to half a 
trillion dollars.
    Mr. Dodaro. Yes. No, you're right. Yes.
    Mr. Jordan. That's significant.
    Mr. Dodaro. Yes.
    Mr. Jordan. All right.
    Mr. Dodaro. It's material.
    Mr. Jordan. I have to run to the floor and give my speech, 
but I wanted to just get that in.
    If I could, Mr. Chairman, I'll yield back, and Mr. Comer is 
going to sit in for us. Thank you.
    Chairman Cummings. All right. Fine.
    Before I leave--I've got to go to the floor, too, to speak 
on H.R. 1. Mr. Dodaro, I will be back. And I'm going to ask Ms. 
Hill, our vice chair, to take over from here. All right?
    Mr. Dodaro. Okay.
    Chairman Cummings. But, again, I say to you, thank you very 
much. And hopefully you'll get the kind of cooperation that you 
need to do your job. We don't want to be paying people who 
can't get the information they need to carry out their job. 
That's all they're trying to do.
    With that, we will now go to Ms. Kelly for five minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    And welcome.
    I'm concerned that the VA is failing to make progress on 
reforms that are desperately needed to better serve our 
veterans.
    Today's report finds that these problems start at the top. 
Your report cites, and I quote, ``Leadership instability at the 
VA as a major risk factor. As of last July, the positions of 
Secretary, Under Secretary for Health, Chief Financial Officer, 
Chief Information Officer, and the Deputy Under Secretary for 
Health for Community Care were all vacant.''
    Mr. Dodaro or whoever you designate, how has unstable 
leadership impacted the VA's ability to serve veterans?
    Mr. Dodaro. Yes. I've been joined by Ms. Nikki Clowers, 
who's our healthcare expert. But I'll take a first shot at 
that.
    You know, since we put the VA on the High Risk List, I've 
met with three different Secretaries: Secretary McDonald, 
Shulkin, and now Secretary Wilkie. So you've had--and we put 
them on the healthcare in 2015. So that shows you, at the very 
top of the Department, how much turnover there's been there. 
And you mention problems throughout the Department.
    As a result of that, we really--the VA, to this day, does 
not yet have a good plan for addressing the fundamental causes 
of why we put them on the High Risk List. They're working on 
it. They have a modernization approach. I've met with Secretary 
Wilkie. He's brought us his top people in and told them to work 
with our people, which I've said we will provide them as much 
help as we can to do that.
    But it's prevented them from dealing with some very serious 
underlying management challenges of accountability, oversight, 
updated policies and procedures, good training programs. They 
don't have good resource allocation issues in a lot of cases. 
So it's been a significant problem.
    Nikki, do you want to----
    Ms. Clowers. I would just add to what you were saying, 
Representative Kelly, the vacancies still remain a problem. 
There's about 12 senior leadership positions that remain vacant 
as of February.
    And when you have those vacancies and not clear policies or 
clearly defined roles and responsibilities for those in acting 
positions, it can cause confusion or for activities not to move 
forward. And we've seen that in some of our work, such as 
suicide prevention outreach, where, when there were vacancies 
in those leadership positions, efforts stalled.
    Ms. Kelly. So there's been a confirmed Secretary for the 
last few months, but you're still citing leadership problems. 
What do you think that's about? It's just not enough time to 
get things in order, or----
    Mr. Dodaro. Well, I would say, first of all, VA has some of 
the most serious management challenges in the Federal 
Government. You know, we look across the entire Federal 
Government. And so the Secretary, no matter who it is, how 
well-intentioned that person will be, it's going to take time 
to address these issues. So I think you have to give the 
current Secretary some time.
    I've met with him. Our people are working with him. I'm 
hopeful. I'm hopeful, in this case, we'll see progress. But 
it'll be some time before they can right the ship there.
    Ms. Kelly. One thing I'm particularly concerned about is 
IT, because I was the ranking member, with Chairman Hurd, last 
year on the IT Subcommittee. And your report says the 
Department has had four different CIOs in the last two years. 
According to the report, the frequent turnover in this position 
raises concern about VA's ability to address the Department's 
IT challenges.
    What should the VA to do to fix this persistent leadership 
problem?
    Mr. Dodaro. Yes. Well, they have a--I believe they have a 
confirmed CIO now in place, recently. So that's a good step. 
But they need to fix a lot of their fundamental IT problems 
over there.
    They've got a huge contract in place now to produce 
electronic healthcare records that can be comparable with DOD. 
You know, we've been tracking this whole electronic healthcare 
record situation for 20 years over there. And VA and DOD still 
don't have either good systems themselves or the ability to 
share records between the two agencies. So if somebody leaves 
Active Duty service, their record doesn't go immediately to VA; 
you have to sort of start over. And this is a huge problem.
    This is expected to take many years, to get these systems 
in place. So they're going to need stable leadership over 
there, better disciplined management practices and IT best 
practices. That's why I've offered to have our experts explain 
to them what kind of best practices that we've seen that they 
should put in place over there. So I'm hopeful they'll be able 
to do it.
    But they have one of the largest IT budgets in the 
government. They've got about a $4 billion budget, as you know, 
in information technology. So they need to have the right kind 
of work force over there and the right kind of systems and 
processes in place.
    Ms. Kelly. I was going to ask you, are you looking----
    Ms. Hill.[Presiding.] The gentlewoman's time has expired.
    Ms. Kelly [continuing]. at the issue, and you apparently 
are.
    Mr. Dodaro. Yes.
    Ms. Kelly. So thank you.
    Mr. Dodaro. Yes. We'd be happy to give you more details.
    Ms. Kelly. Thank you.
    Ms. Hill. I'd like to recognize the gentleman from 
Kentucky, Mr. Comer.
    Mr. Comer. Thank you, Madam Chair.
    Mr. Dodaro, I want to focus my questions on oversight of 
food safety.
    As more and more food is imported from abroad, do you 
anticipate more strain on Customs and Border Protection as it 
enforces regulations on goods flowing into the country?
    Because, you know, when we talk about national security, 
obviously, there are many of us in Congress, apparently not a 
majority, that are serious about border security. But one of 
the aspects of border security and national security that we 
fail to hear a lot about is our food supply. There's no greater 
issue to our national security than the need to have a safe, 
abundant supply of food.
    So I guess, what do you see in the future with respect to 
strain on border security?
    Mr. Dodaro. Yes. Well, food safety's been on our list for a 
long time.
    Mr. Comer. Uh-huh.
    Mr. Dodaro. Our system that we have now is very fragmented. 
There are about 30 different laws, 15 different Federal 
departments and agencies that have responsibility for food 
safety, FDA and USDA being the 2 most important areas over 
time. And there is no comprehensive governmentwide plan. 
Imports have grown dramatically over time, particularly in 
seafood areas, but about 60 percent of fruits and vegetables 
right now are imported as well. And that's only on a trend to 
continue in the future.
    And I think, you know, the impact as it relates to the 
Customs and Border Patrol is they're a part of the system, but, 
actually, I think, from their standpoint, the other big issue 
that's on our High Risk List is medical products and food 
safety. You know, 80 percent of the ingredients for 
prescription drugs come from foreign sources, 40 percent of 
finished drugs. And that's where we're having a lot of problem 
with the fentanyl and other areas.
    So both food safety, as you're appropriately pointing out, 
but also other safeties of prescription drugs, medical devices, 
and others.
    So, you know, we're in a global marketplace now, and our 
systems were set up for domestic production, domestic 
oversight. So we've been working with the Congress for a number 
of years to now get the agencies more focused on other country 
systems as a means of trying to make sure that there's at least 
first line of defense there, and then we can also, you know, do 
our part to handle these areas.
    I'm, you know, very disappointed in the progress that we've 
made in the food safety area. You continue to see, you know, 
thousands of people who have foodborne illnesses every year.
    Mr. Comer. Right.
    Mr. Dodaro. Many people die in the year.
    And, recently, there was the big recall of blood pressure 
medicine because of problems in production in China and India. 
You know, most of our prescription drugs come from those two 
countries.
    Mr. Comer. I believe President Trump has proposed 
consolidating all the food-safety efforts under one agency. 
Would that correct the problem with waste of duplicate 
programs? Or would that--how would that affect----
    Mr. Dodaro. Yes. Well, we've called for such comprehensive 
reform in the past. And, actually, you know, based on my 
discussions with OMB, they were informed by our work in this 
area.
    Now, obviously, a lot depends on exactly how that's done, 
how it's implemented, and a number of areas. But there needs to 
be, at a minimum, a governmentwide comprehensive plan----
    Mr. Comer. Right.
    Mr. Dodaro [continuing]. you know? And, right now, the FDA 
and Agriculture and these other agencies share a little bit of 
information, but it's on a situation-specific issue.
    Mr. Comer. You're exactly right. That's been my experience. 
The FDA and the USDA, they communicate a little bit but not a 
lot.
    Mr. Dodaro. Yes. And they have very different approaches--
--
    Mr. Comer. Absolutely.
    Mr. Dodaro [continuing]. that they take to food safety.
    And so, you know, our goal--we've been pushing for a 
reorganization for a while, but, at a minimum, we need a 
governmentwide plan. There used to be a food safety council, 
but that hasn't met for a number of years as well. So that's a 
problem.
    And Mr. Gaffigan here, Mark Gaffigan, is our expert in this 
area. Let me just ask if he wants to add anything.
    Mr. Gaffigan. I would just say it's going to get more 
complicated. I was just at the ag forum last week, and they 
talked about our population getting close to 9 billion people 
by 2050 and the need to come up with a food--FDA and USDA are 
the two main agencies. They talked about having, currently, 17 
different MOUs just to try to coordinate on.
    And one of the reasons it's going to become more and more 
complicated is the use of technologies. We're going to start 
seeing genetically engineered beef, talking about those things. 
And there's a lot of regulatory uncertainty about that.
    And it's a global market. Other countries are doing 
different things. And we sort of need to get our act together, 
try and make sure there's some regulatory certainty so we can 
meet that need for safe, reliable food.
    Mr. Comer. Thank you.
    Thank you.
    Ms. Hill. Thank you.
    I'd like to recognize Mr. Raskin from Maryland.
    Mr. Raskin. Thank you, Madam Chair.
    Mr. Dodaro, welcome.
    You run the supreme audit agency for the U.S. Government, 
which is a $4 trillion enterprise, one of the most complex 
institutional entities on Earth.
    Your high risk designation program identifies government 
programs that have unique vulnerabilities to waste, fraud, 
abuse, and mismanagement. And in 2018 you added the personnel 
security clearance process to your High Risk List.
    The GAO's report states, and I quote, ``A high-quality 
personnel security clearance process minimizes the risks of 
unauthorized disclosures of classified information and helps 
ensure that information about individuals with criminal 
histories or other questionable behavior is identified and 
assessed.''
    Now, I just want to you ask a few obvious questions first. 
Do you think that a high-quality security clearance process 
should identify concerns about a candidate's suitability before 
they receive classified information?
    Mr. Dodaro. Absolutely.
    Mr. Raskin. Do you think a high-quality security clearance 
process should assess whether an applicant is susceptible to 
inappropriate influence or blackmail from a foreign government 
or another third party?
    Mr. Dodaro. Yes.
    Mr. Raskin. Why is it important that investigators and 
adjudicators assess these concerns before a security clearance 
is granted to an applicant?
    Mr. Dodaro. Well, it's very important because, once a 
security clearance is granted, it's not updated until several 
years later. So you're entrusting that person to protect the 
information at the appropriate level, whether it's Secret, Top 
Secret. There can be compartmentalized secret information----
    Mr. Raskin. And kind of things could happen if a security 
clearance is granted to someone who really shouldn't have it?
    Mr. Dodaro. Well, you've seen episodes of that with, you 
know, Edward Snowden and other people. I mean, a lot of the 
secrets can be, you know, unveiled to the public.
    There's also possibilities of putting people at risk at the 
intelligence communities and law enforcement agencies. I mean, 
there's a lot of potential problems that could occur. That's 
why we put it on the list, because there's such a backlog.
    You know, it used to be--I mean, after September 11, 2001, 
more things became classified. And, most recently, more things 
are becoming more classified. So the government really didn't 
adapt to having a better infrastructure to do security 
clearances.
    I might note also, I've been joined by Cathleen Berrick, 
who's our expert in this area, so she'll help me answer some 
questions.
    Mr. Raskin. Okay. You can choose who answers----
    Mr. Dodaro. Okay.
    Mr. Raskin [continuing]. as you wish.
    But last week, on February 28th, The New York Times 
reported that President Trump ordered John Kelly to grant Jared 
Kushner a security clearance. But based on the FBI's background 
investigation, career officials at the White House reportedly 
recommended against granting Mr. Kushner a security clearance. 
And the CIA reportedly expressed concerns about granting Mr. 
Kushner access to the Nation's most sensitive information.
    Do you know whether these reports are accurate?
    Mr. Dodaro. No. No. We've not looked--we typically do not 
look at individuals and the clearance decisions. We look at how 
the process works.
    Mr. Raskin. Okay. And we cannot gauge the veracity of these 
claims either, because President Trump and the White House are 
withholding this information from our committee.
    When the GAO investigates whether a process or program is 
functioning properly, is it important for agencies and 
officials in the executive branch to cooperate with your 
investigation?
    Mr. Dodaro. Yes.
    Mr. Raskin. Do you agree it's important for Congress to 
review how the White House conducts its security clearance 
process today in order to ensure that the system is functioning 
properly?
    Mr. Dodaro. I think it's definitely within the Congress's 
oversight purview to do so.
    Mr. Raskin. Okay. Well, I am with you, because I'm very 
concerned that your finding that our governmentwide security 
clearance process poses a high risk is one that is going 
completely ignored by the executive branch of government. In 
fact, they're compounding the risk by overriding the procedures 
that are supposed to be in place.
    I'm very troubled that the White House and other parts of 
the administration have failed to provide us information about 
the process, as required by a statute that was signed into law 
by President Trump himself. The committee must continue to 
pursue information about the clearance process at the White 
House and elsewhere in this administration.
    I think James Madison said it best long ago, which is that 
knowledge will forever govern ignorance, and a people who mean 
to be their own Governors must arm themselves with the power 
that knowledge gives. We need that knowledge in order to do the 
people's business.
    I yield back, Madam Chair.
    Ms. Hill.[Presiding.] Perfect timing. I recognize the 
gentleman from South Carolina, Mr. Norman.
    Mr. Norman. Thank you, Madam Chairman.
    Mr. Dodaro, in the past decade, Congress has imposed many 
complex regulations on financial institutions with little 
regard as to whether this is sensible, particularly for the 
smaller community banks and the credit unions. In February 2018 
GAO reported that new financial regulations imposed costly 
compliance burdens on smaller, community banks and credit 
unions. What steps should the financial regulators need to take 
in order to sufficiently address these challenges, particularly 
with the cost of the regulations that ultimately the customers 
and consumers are going to pay for?
    Mr. Dodaro. Yes. Yes, we've done work looking at the 
compliance burden, particularly for community and small banks. 
I've been joined by Mr. Lawrence Evans, who heads our financial 
markets and community investment work. He can give you details.
    Mr. Evans. Yes, thank you for that question. One of the 
most important things regulators can do is rigorous cost-
benefit analysis, including retrospective reviews, and we've 
leveled a number of recommendations militated toward ensuring 
that we're quantifying where possible and we're doing 
everything in our power to ensure that we can right-size 
regulations, where appropriate, without losing effectiveness.
    Mr. Norman. Give me some examples, like--pick Dodd-Frank, 
some of the regulations that they had back when the TARP fiasco 
was going on.
    Mr. Evans. That's right. So, you know, some of these 
regulations are subject to the Regulatory Flexibility Act, 
which requires a cost-benefit analysis before they promulgate 
the rules. Also, there are--there's the agripper process which 
requires a retrospective review. So this will allow you to 
right-size regulations appropriately if it's done well.
    Mr. Norman. And how were these presented to the banks? In 
other words, what form did that take to say that they could 
save X dollars if they did this?
    Mr. Evans. So I think that's a more complicated question. 
Typically, when this analysis is done, there is a notice of 
proposed rulemaking or some type of vehicle for banks to 
discuss issues that they have, and then that is considered as 
they attempt to finalize the rules.
    Mr. Dodaro. One of the things, Congressman, we were 
required to look at all the rulemaking under Dodd-Frank. And so 
one of the things that we identified was that a lot of the 
financial regulators are not required to follow OMB guidance on 
cost-benefit analysis, No. 1, and so we suggested they have a 
more rigorous cost-analysis benefit that would follow the best 
practices in that area.
    Second, they were--there wasn't as much coordination among 
the financial regulators as there needed to be, in order to 
address this issue. So those were two things up front before 
the original regulations will be put in place.
    Now, what we find is, after the regulations are put in 
place, they were slow to look at it, how is it actually 
working. Because you can do a cost-benefit analysis up front, 
but you make assumptions and you have certain things. But it's 
different from what might play out in reality once the 
regulation is in place.
    Mr. Norman. Yes.
    Mr. Dodaro. So both things are important.
    Mr. Norman. CRA is a good example. A lot of banks--
Community Reinvestment Act--where the banks wanted to invest, 
wanted to help the communities, but they had no guidance.
    Mr. Dodaro. Right.
    Mr. Norman. And they didn't want the hammer that was 
brought down. The other thing was the cost of compliance 
where--where banks, they couldn't afford to buy another bank in 
a smaller community because it was going to mean a whole new 
team of regulators to interpret the regulations that were put 
on them. So I would just ask you, as you move forward, to work 
toward that end, giving the banks definite things to work--work 
toward concrete measures so that it's not out in the--in the 
hinder land, so they don't know how to enforce it.
    Mr. Dodaro. Yes. No, it's a point well taken, Congressman.
    Mr. Norman. Thank y'all for coming. I yield back.
    Ms. Hill. Thank you. I would like to recognize Ms. 
Wasserman Schultz from Florida.
    Ms. Wasserman Schultz. Thank you, Madam Chair. Mr. Dodaro, 
good to see you. Glad to be able to have an opportunity to have 
some dialog with you. It was a privilege to do that when I 
oversaw your budget as the ledge branch chair.
    I want to continue with Congressman Raskin's line of 
questioning, because in your report, you indicated a 
governmentwide security clearance backlog of 565,000 
investigations. And your report also identifies lack of quality 
measures as a risk facing the governmentwide personnel security 
clearance process. What quality assessment standards currently 
exist for background investigations?
    Mr. Dodaro. Ms. Berrick will answer that question.
    Ms. Wasserman Schultz. Thank you.
    Ms. Berrick. Yes, thank you for the question. We've been 
reporting for the last 20 years on the need to improve the 
quality of background investigations supporting security 
clearances. And most recently in 2010, we recommended that the 
executive branch develop measures to assess the quality of how 
agencies are doing in terms of performing investigations and 
documenting them.
    In the years since, the executive branch has taken two 
important steps to get there, but they haven't yet reached that 
goal. They developed, as you mentioned, these quality standards 
for assessments. These are really kind of guideposts that tell 
agencies, here's the sorts of things you should be looking at 
when determining whether or not an investigation is complete.
    And then they also developed a reporting tool for agencies 
to report that information to the--through the Performance 
Accountability Council.
    What's missing, though, are those metrics to really assess 
how well our agency's doing in terms of meeting goals and 
developing high quality investigations. And we continue to urge 
the executive branch to develop those.
    Mr. Dodaro. Yes, I think the issue, we pointed out, is, you 
have good standards, but you don't know whether they're being 
followed or not. And so unless you measure how well they're 
being followed, you really don't know.
    Ms. Wasserman Schultz. Okay. And that sort of begs the 
continued question that has arisen. If there are standards that 
have been established and strengthened on your 
recommendations--the recent media reports that indicated that 
members of the Trump administration, including Jared Kushner, 
and Ivanka Trump, were able to obtain security clearances 
against the recommendations of White House staff, presumably 
using those standards, that's troubling because obviously the 
White House is supposed to set an example for the rest of 
government to follow. And your report outlines ways in which 
the administration is already failing to ensure that there is 
background-clearance quality.
    Mr. Dodaro, could you--could you share with us how granting 
a security clearance to an official where there were credible 
concerns about their ties to foreign nationals--you indicated 
that that would be a concern in answering Mr. Raskin's 
question--how would that impact our national security 
potentially?
    Mr. Dodaro. Well, I think, I mean the whole point of the 
background investigations is to ensure that the wrong 
information doesn't fall in the wrong hands. And so it's very 
important. It can compromise national security in a lot of 
different ways by, you know, making sure that people, you know, 
people can understand the government's, you know, processes and 
controls and informations that would--that would enable them to 
get, you know, a potential advantage of dealing with our--you 
know, whether it's an adversary of the United States or even an 
ally of the United States.
    So this is very important that only the right people in the 
government have access to the highest, sensitive--most 
sensitive information.
    Ms. Wasserman Schultz. So, in your opinion, could the 
President's overruling White House security clearance 
personnel's recommendations, impact the quality and integrity 
of a national security background check?
    Mr. Dodaro. I don't have enough facts about that situation. 
We haven't looked at it to--to opine on that issue.
    Ms. Wasserman Schultz. Okay. The fact that bypassing--let 
me just ask you another question.
    So would it be appropriate for an individual to bypass the 
recommendation against a security clearance, from security 
clearance personnel?
    Mr. Dodaro. It depends on the facts and circumstances 
associated with the decision. There's a--there's a--part of the 
process is called the adjudication process. And it's up to the 
person who's responsible for the adjudication to take the 
results of the background investigation and make a decision 
whether to grant the clearance or not. In some cases, they may 
or may not agree with the investigation that's in place. So 
it's a very facts and circumstances decision.
    Ms. Wasserman Schultz. And that's why this committee, under 
Chairman Cummings, is trying to get information from the White 
House, which they have not yet sent, because we do need to get 
to the bottom of how those security clearances were granted, 
because as you said, there is a potential risk to our national 
security. Isn't that right?
    Mr. Dodaro. I think it's well within Congress' right to ask 
questions and get the facts associated with the situation.
    Ms. Wasserman Schultz. Thank you very much. I yield back.
    Ms. Hill. Thank you. Mr. Gibbs from Ohio?
    Mr. Gibbs. Thank you.
    Mr. Dodaro, just to followup on the security clearance, 
ultimately, the President of the United States, doesn't he have 
final authority to grant or deny a security clearance for a 
White House employee?
    Mr. Dodaro. I'm not sure we--and we haven't looked at the 
legal authority of the President in this regard.
    Mr. Gibbs. Because--because my understanding, former 
President Clinton created a process issuing security clearances 
for White House employees by executive order. So maybe there's 
been a sort of precedent set there, I don't know.
    Mr. Dodaro. Yes, we've never looked at the security 
clearance process in the White House, either under past 
administrations or the current one.
    Mr. Gibbs. Okay. I did have quite a few questions about 
food safety but my colleague from Kentucky did an excellent 
job. And I was really impressed with your knowledge on 
answering those questions.
    Looking through your report here, about the U.S. Postal 
Service, you talk about their 3 to $5 billion loss every year, 
and we all know that first-class postage is dropping because 
stuff's done by e-mail and everything. But the third class or 
the bulk stuff has been growing because of all the shipments 
from the internet. But then also we are about the benefits to 
retirees. What do you see as their biggest challenge or their 
biggest adding to their deficit?
    Mr. Dodaro. Yes. Their biggest problem is, the business 
model is really broken. And the first-class mail has always 
been their most profitable line of business, and that has 
declined. It went down further during the Great Recession that 
we had in 2009, or whatever, and really hasn't come back yet or 
not. And they haven't been able to control their costs.
    So they have a structural problem with their labor costs 
and other costs and not enough revenue to cover it, and as a 
result, they haven't been able to make payments into the 
retirement healthcare program.
    Now, for the first time, they're starting to draw down on 
the fund that they paid, so eventually when that money gets 
drawed down for retirees' healthcare benefits and the 
benefits--healthcare benefits of their current work force, 
there's going to be a real issue at that point.
    But right now, you don't have a sustainable business model 
with appropriate revenues and expenditures. I mean, they were 
intended to be a government corporation, to be run like a 
private business, but that model is--is not what's happened.
    Mr. Gibbs. Yes. Okay. I just wanted to get the 
clarification on that, because I hear from some of my 
constituents in that--in that area, that they're blaming it 
more on the healthcare retirement benefits is really their 
problem.
    Mr. Dodaro. That's--that's a symptom of the problem, and 
their liabilities are almost twice their revenues, their 
unfunded liabilities. That's included or whatever, but that's 
not--you know, that's part of the solution.
    Mr. Gibbs. Okay.
    Mr. Dodaro. And we've suggested you could smooth out those 
payments over time a little bit better, but that alone is not 
going to fix their issues.
    Mr. Gibbs. Okay. In previous years, the GAO has reported 
that the PBGC has not properly managed its investments. Has the 
agency corrected its policies and fully benefited from the 
growth in the stock market in the recent years?
    Mr. Dodaro. Mr. Charlie, come on. I'm going to bring up our 
expert on PBGC. I'm very concerned about the multi-employer 
pension----
    Mr. Gibbs. So am I.
    Mr. Dodaro [continuing]. as I mentioned in my opening 
statement, I mean, that's projected to be insolvent by 2025, 
and if that happens, they--PBGC estimates they will only be 
able to pay benefits to--there's about 11 million people 
covered by that benefit of $2,000 a year. I mean, that's not 
adequate pension by any stretch of the imagination. Charlie can 
talk about their investment policies, Congressman.
    Microphone.
    Mr. Jeszeck. Congressman, there are two big programs in 
PBGC, that's the single-employer program and the multiemployer 
program. They have different structures. The single-employer 
program actually collects assets when a company goes bankrupt, 
and the pension goes to PBGC, so they have those assets. The 
single-employer program is actually doing much better. It's 
actually, I believe, in surplus as of 2018. So they have been 
able to take advantage of the stock market as well as other 
things to get to that situation.
    The real problem, as the Controller General mentioned, is 
the multiemployer plan program. And now the multiemployer 
program is a different structure. They don't collect assets 
from--from pension plans. The triggering event that the 
multiemployer program pays--becomes operative on, is when the 
plan becomes insolvent. So there aren't any assets there to--at 
least for PBGC to gain market return----
    Mr. Gibbs. Just quickly, do you have any recommendations to 
GAO about how to maybe resolve some of this issue or----
    Mr. Dodaro. Yes. We--yes, we have a number of results. 
There needs to be a new premium structure that's risk-based 
over there. The PBGC Board should be expanded because right now 
it's just the heads of three or four different departments and 
agencies, and it should be some outside people involved, 
experts in that area as well over time, and the Congress really 
needs to address the multiemployer pension program. I've sent 
special letters up. Congress took action in 2014, but it didn't 
completely solve the problem.
    Ms. Hill. The gentleman's time is expired.
    Mr. Dodaro. And I can submit for the record all our 
detailed recommendations.
    Mr. Gibbs. My time has expired. Okay, thank you.
    Ms. Hill. Thank you, Mr. Dodaro.
    I recognize the gentle lady from New York, Ms. Ocasio-
Cortez.
    Ms. Ocasio-Cortez. Thank you.
    I want to ask about one of the most important issues 
addressed in GAO's high risk report, and that is climate 
change. Over the last two years, the Trump administration 
released the fourth National Climate Assessment, which is the 
Federal Government's definitive statement on climate science, 
and Volume 1 of the assessment confirmed that climate change is 
real, it is happening now, and that humans are the cause.
    Volume 2 of the assessment looked at serious--looked at the 
serious impacts of climate change and projected that rising 
temperatures, flooding, and extreme weather caused by climate 
change, will result in economic losses of, quote, hundreds of 
billions of dollars by the end of the century.
    In fact, according to The New York Times these prospects 
include major hits to GDP, up to 10 percent, drought and 
reduced crop yields and other issues, destruction of 
infrastructure due to rising sea levels, rebuilding power grids 
wiped out by storms. We've seen this even on a small level in 
Puerto Rico. [TheNew York Times article is available on:  
docs.house.gov or https://www.nytimes.com/2017/10/12/nyregion/
bronx-heroin-fentanyl-opioid-overdoses.html]
    As some of these costs, especially with reducing farm meals 
represent permanent losses to the economy, to the United States 
economy. Mr. Dodaro, do you agree that climate change is 
occurring?
    Mr. Dodaro. Our work relies on the global, climate-change 
assessments that are done as well as numerous studies by the 
National Academy of Sciences, which have concluded climate 
change is producing economic and environmental risks to the 
government and increasing the Federal Government's fiscal 
exposure.
    Ms. Ocasio-Cortez. So you believe climate change is real?
    Mr. Dodaro. Well, that's one of the reasons we added it to 
the High Risk List in 2013. Now, our focus on the High Risk 
List is on limiting the Federal Government's fiscal exposure 
and----
    Ms. Ocasio-Cortez. Got it. Do you agree that the United 
States could face huge costs as a result if we fail to act 
right now?
    Mr. Dodaro. Definitely.
    Ms. Ocasio-Cortez. Okay.
    Mr. Dodaro. Yes, the----
    Ms. Ocasio-Cortez. Sorry, because I have limited time.
    Mr. Dodaro. All right. Go ahead.
    Ms. Ocasio-Cortez. President Trump's own Director of 
National Intelligence, Dan Coats, provided a National Threat 
Assessment to Congress in January that identified climate 
change as a threat to our national security as well. Global, 
environmental, and ecological degradation, as well as climate 
change, are likely to fuel competition for resources, economic 
distress and social discontent through 2019, this year, and 
beyond.
    How is climate change currently impacting our national 
security?
    Mr. Dodaro. Well, there--there are direct impacts on the 
Defense Department right now. You saw last year with the storms 
in North Carolina and in Florida, Tyndall Air Force Base, Camp 
Lejeune, both had damages over $3 billion and need to be 
repaired. There's other infrastructure, particularly along 
coastal areas where sea-level rise is changing. And the impacts 
on the Defense Department also extend to their international 
installations around the world, so it's both domestically and 
internationally.
    Ms. Ocasio-Cortez. So we're seeing already, as you 
mentioned, already existing costs in the billions of dollars 
due to the Department of Defense, because of climate change and 
the impacts of climate change. But rather than trying to slow 
down climate or mitigating its impact, it seems as though the 
administration right now is ignoring its own scientists, 
national security professionals, and economists who warn that 
the continued increased flooding, extreme weather, and 
temperature increases will be extremely costly for the Federal 
Government.
    Mr. Dodaro, what steps would the GAO recommend that the 
White House take to show leadership in addressing these issues 
and saving our next generation?
    Mr. Dodaro. Yes, our recommendations extend in several 
different areas. One is, they have a comprehensive national 
strategy. The Federal Government needs to provide leadership in 
this area. Many of the vulnerabilities are decisions that are 
made at the state and local level--building codes and other 
issues.
    We've also recommended that the Federal Government find out 
ways to provide better climate science information to state and 
local officials, so they can be on an actionable basis. The 
Federal agencies need to prepare--Federal Government's one of 
the largest property holders in the United States. The flood 
insurance program is not on a fiscally sound basis. It's not 
actuarially sound. It's also on our High Risk List. Crop 
insurance. So we made a number of recommendations in that area 
and give you a complete list for the record.
    Ms. Ocasio-Cortez. And I would just like to submit that it 
truly does not seem as though the track record is showing up 
that there's any desire in the executive branch to address 
climate change, and we have to reiterate that Congress--and we 
have to use our--our powers here so that Congress and this 
committee, particularly with oversight, take action to address 
this clear and present danger to the United States. Thank you 
very much.
    Mr. Dodaro. Yes. And along those lines, we do give credit 
to the Congress for passing the National Disaster Recovery--
Reform Act--excuse me--Reform Act in 2018, which allows funding 
now to be set aside for resilience building and mitigation, and 
to give state and local governments funding for Building Code 
reforms. So that was a good step Congress has taken.
    Ms. Hill. Thank you so much.
    Mr. Dodaro. More needs to be done, though.
    Ms. Hill. We agree. Thank you.
    I recognize Mr. Grothman from Wisconsin.
    Mr. Grothman. Okay. I have a little bit of the statement on 
the--on the concerns about climate change and that sort of 
thing. I realize you don't have a choice, apparently, to bring 
things in or investigate things or make statement on things 
when individual Congressmen ask you to do things, but without 
going into a depth, if you Google it, the science or the 
opinions on climate change vary a great deal.
    You know, sometimes you talk about saving money, which is 
good. You know, we don't want waste in Medicaid or Medicare or 
anywhere else. But as far as doing wide-reaching things, 
because of climate change, which may or may not be true, 
depending upon what you Google, I think has the potential to 
kind of discredit your agency in the eyes of some. You know 
what I'm saying?
    I mean, I always kind of think at GAO fighting waste or 
fraud or something that we're all on the side of the 
recommendations, and when you begin to make recommendations 
based on what some people think about climate change, and other 
people don't think about climate change, I think it kind of 
hurts your agency a little. Although you might not have a 
choice in it.
    Now I'll go on. I want to talk about the tax laws a little 
bit. You have made recommendations, I guess 103 
recommendations, to the IRS since February 2017. And most of 
those recommendations remain open. Could you give me some 
summary of the recommendations you have or major 
recommendations that you believe nothing has been adapted on?
    Mr. Dodaro. We have recommendations in the IRS, both for 
the IRS itself, as well as for the Congress, in those areas. 
But I would say, with regard to your statement, Congressman, 
we're focused on limiting the Federal Government's fiscal 
exposure. Since 2005, the Federal Government has spent nearly 
half a trillion dollars to respond to major disasters. We're 
not suggesting that there be steps made in dealing with, you 
know, greenhouse gas emissions and all those things. Our focus 
is on fiscal exposure to Federal Government, which we think is 
our responsibility at GAO, and we've got a good basis for doing 
that.
    So I'll let Chris talk about the IRS.
    Mr. Mihm. Yes, sir. Congressman, as the Controller General 
mentioned in his earlier testimony, is that when you have a 
$400 billion annual tax gap, we've been focusing, as well as 
IRS, on how do you reduce that tax gap. How do you make sure 
that we can--because all you would need is----
    Mr. Grothman. Define the tax gap.
    Mr. Mihm. All right. Tax gap is the difference between what 
IRS actually collects and what is legally owed. And so this 
is--Congress has already established through law what should be 
paid, and this is actually what comes in. And this is a net, 
this $400 billion. So this is after enforcement actions may 
have taken place. So this is--this is a big deal. Not only is 
it foregone revenue, but it also, if you're a business and 
you're fairly and accurately paying your taxes, it puts you at 
a competitive disadvantage if your competitor is not paying, 
you know, his or her taxes.
    So we've been focusing on the opportunities to reduce the 
tax gap. The point here is that you would only need 5, 10, 15 
percent reductions and you're, in effect, funding another 
Cabinet department. So you could really make a big difference 
there.
    The strategy that IRS needs to put in place is three-fold. 
One is that they need better enforcement and that is, it needs 
to be better targeted. They need to know return on investment 
of their various strategies that they have in place. We've had 
recommendations in place that they need to do a better job on 
that.
    Second is that they need to have much better customer 
service, is that most people want to pay their taxes and they 
want to pay it accurately. A lot of times when they don't, it's 
because they have made an honest mistake, and that they--if the 
IRS makes sure that they have good customer service, they can 
help on that on that. Their telephone service has improved 
markedly in recent years because Congress gave them more--more 
financial resources to do that, and because IRS is putting in a 
better service strategy as we've been recommending.
    And then the third thing that needs to be dealt with is 
obviously the complexity of the Tax Code. It can be very 
difficult for people to understand what they need to do.
    Mr. Grothman. Do you think part of the problem is when we 
put dollar-for-dollar credits in there, it encourages people to 
do wrong things? I mean, you put a--you put a wrong number on 
your tax return, if a marginal rate is 27 percent, you know, 
maybe it affects you, you know, 27 cents on the dollar. But 
when you have credits in there, I think it encourages people to 
intentionally do things wrong. Do you think that's accurate?
    Mr. Mihm. Well, we haven't actually looked at it from that 
angle, sir, and it's an intriguing way to kind of think about 
the issue. But there are two aspects of what you're raising I 
think that are important. One is that for many of the errors 
that may be made by people, the actual dollar amount may be 
relatively small for those individual areas. Obviously, 
cumulatively, it can be huge, which--but the individual errors 
if they're small--yes, sir?
    Mr. Grothman. I just want to get one more question here on 
Medicaid before--before things end. I was recently down at the 
border, and the customs people were concerned, of all the 
Medicaid cards they saw people coming back across the border 
down south to Mexico had. In other words, people who are here 
illegally with Medicaid cards. Is that something you've 
addressed, the degree to which we are giving Medicaid benefits 
to people who are not citizens?
    Ms. Hill. Mr. Dodaro, the time is expired, but you may 
answer the question.
    Mr. Dodaro. We have not focused, per se, on that issue. One 
of the things, though, that we've suggested, that CMS has not--
the Center for Medicare and Medicaid Studies, has not looked at 
beneficiary eligibility determination since 2014, when the 
Affordable Care Act went in place. They're going to start now 
in 2019, but for these several years, nobody's been looking at 
the eligibility determinations for individual beneficiaries. 
And that needs to be looked at.
    Mr. Grothman. Good. Customs thinks it's a problem, so 
thanks.
    Ms. Hill. Thank you. I just have to say that as a 
Californian coming off of the most deadly fire season in our 
state's history, that science is science, and I think that 
that's something that we should continue to respect in this 
chamber.
    With that, I'd like to recognize Mr. Lynch.
    Mr. Lynch. Thank you, Madam Chair, and thank you for 
holding this hearing.
    Mr. Dodaro, welcome back. You're a frequent flyer to this 
committee, and I just want to say, I hold you and your staff in 
the highest regard in terms of the work that you do on our 
behalf. I do--I want to followup on Ms. Wasserman Schultz' 
questions and other Members' questions about security 
clearance.
    So we've been worried about this for some time, as you 
know. It's been a frequent topic of discussion at this 
committee. I know going back to the Navy Yard shootings where 
we had an individual who should not have had a security 
clearance was able to perpetrate those crimes. I do want to 
drill down a bit on Mr. Kushner, though. And, you know, I know 
you look at the system and not individuals, but we have an 
individual here who, he had dozens and dozens of contacts with 
foreign governments and foreign officials, and yet, when he had 
to fill out his--his disclosure to get his clearance, he 
forgot, and he forgot about meetings that he had just had weeks 
and months before he applied for his clearance.
    So he had dozens of--dozens of meetings with foreign 
officials, Russians in particular. He--you know, he--I think 
he--frankly, you don't have dozens and dozens of meetings and 
then just forget about it. I think he actually misled people in 
getting his security clearance.
    And then on top of that, his own refusal to disclose, the 
White House also engaged in reinforcing or abetting him in his 
cover-up. The White House transition team, basically Hope Hicks 
at the time, said, no, it never happened, there was no 
communications between Mr. Kushner or any campaign and a 
foreign entity during the campaign. That was on November 11th.
    Again on January 13, White House Press Secretary Sean 
Spicer, he gave a timeline of meetings between General Flynn at 
the time, who was the National Security Advisor, and Ambassador 
Kislyak from Russia, but he never mentioned that Mr. Kushner 
was in the meeting. So they gave--gave a very selective 
disclosure there. Again, on January 23d, 2017, again, Mr. 
Spicer disclosed phone calls with Mr. Flynn and the Russians 
but left out Mr. Kushner and did not disclose that Mr. Kushner 
was at the meeting at the Trump Tower.
    So--and it goes on and on and on. There's February 14th, 
February 16th, February 20th, where the White House says there 
was no contact at all. And yet later on there was pressure put 
on Chief of Staff John Kelly to basically give him--give him 
the security clearance.
    Here's where it gets really interesting. Now we have 
multiple whistleblowers who have come forward to the committee 
and indicated to us that Mr. Kushner is leading an effort to 
transfer nuclear technology to Saudi Arabia. And the details of 
this--I'll just give it to you really quickly.
    Brookfield Business Partners buys Westinghouse Electric for 
$4.6 billion. And they're trying to get the contracts in Saudi 
Arabia to build these nuclear plants, you know, if they get the 
approval from the--from the government.
    What they're trying to do as well, they just bought a 
share--a partnership share in 666 Fifth Avenue, which is owned 
by Mr. Kushner's family, and it's in dire financial shape. So 
the same company that's looking for the technology transfer, 
for the Saudis, is invested in Mr. Kushner's family's building 
at of 666 Fifth Avenue. So if you're ever looking for a smoking 
gun on something--and your people are really, really smart. I 
mean all of them. But it doesn't take Sherlock Holmes to figure 
this out, that there's a problem.
    And it just goes back to the decision that was made to give 
this individual a security clearance, and the total disregard 
for national security, and for the interest of this country, 
being exercised by this individual and this White House. So I 
hope you look into it. We're going to look into it, that's for 
sure.
    It is a disgrace that this is happening and that we are 
allowing an individual with these obvious conflicts to continue 
to--to be involved as a special envoy when his own personal 
interests are obviously overriding the----
    Ms. Hill. The gentleman's time----
    Mr. Lynch [continuing]. the national security interests of 
this country.
    Thank you for your indulgence, Madam Chair. I yield back.
    Ms. Hill. Thank you.
    Mr. Higgins?
    Mr. Higgins. Thank you, Madam Chair.
    Mr. Dodaro, thank you for your service to your country, 
sir. You have struck me as such a candid and intelligent man, 
and your staff must be brilliant. One of the most difficult 
jobs that perhaps exists in this Federal Government is to try 
and keep this thing under control, regarding spending. So thank 
you for your very sincere effort.
    I have important questions regarding significant services 
to many, many millions of Americans--Medicaid and Medicare--but 
before I get there, let me ask you, you refer to process and 
studying the process in the interest of fiscal stability and 
efficiencies for the Federal Government. That's your job. The 
process and differences between White House clearance processes 
and Federal agencies clearance--security clearance process, 
there's a difference, is there not?
    Mr. Dodaro. Quite frankly, Congressman, I don't know. 
Because I--we never looked at the White House security 
clearance process.
    Mr. Higgins. Are you--are you familiar with the fact that 
the White House conducts a suitability review, and then they 
can receive a favorable or unfavorable adjudication through 
another series, if it's different for a Federal agency?
    Mr. Dodaro. Yes, I just don't have that information.
    Mr. Higgins. Let me just share that according to my 
understanding, the President has the ultimate authority to 
grant or deny security clearance. Are you aware that Members of 
Congress have access to highly confidential data and security 
clearances?
    Mr. Dodaro. I would assume so, but I never looked at that 
part.
    Mr. Higgins. We do. Don't quote me on this, but according 
to my memory, somewhere--somewhere north of 40 Congressmen, 
either prior to office or while in office, have been convicted 
of felonies. So let us move on, please, to the people's 
business.
    It--according to your--to your knowledge--sir, I'm moving 
if you need the appropriate staff member to----
    Mr. Dodaro. Right.
    Mr. Higgins [continuing]. to Medicaid here. I'm very 
concerned about it. Last year the Federal portion of Medicaid 
spending totaled nearly $400 billion. Additionally, 9.8 percent 
of Federal program spending and the $36.2 billion was 
attributed to improper payments.
    Now, one of our major missions here is to control waste, 
fraud, and abuse, mismanagement of moneys, and you and your 
staff are brilliant and dedicated to this effort. As the 
Medicaid program continues to expand and grow, I'm increasingly 
concerned about the program's integrity. In fact, auditors in 
my home state of Louisiana have recently identified as much as 
$85 million in improper payments. What's the status of CMS's 
initiative to reduce improper payments based on your 
recommendations?
    Mr. Dodaro. They're starting to take some action. They have 
a strategy that they put in place, but quite frankly, a lot 
more needs to be done. The $36.7 billion that you mentioned in 
improper payments is only one component of the components of 
improper payments at Medicaid.
    The other component, Congressman, is the managed-care 
portion, which is about half of the Medicaid spending. Nobody's 
auditing that area as well, and we've recommended they do that.
    I've talked to Daryl Purpera, your state auditor in 
Louisiana, and work with the State Auditors Association to try 
to get state auditors more involved, and the Federal Government 
should support them.
    The other component, the third component, is beneficiary 
eligibility determinations. That has not been done by CMS and 
the administration since 2014 when the Affordable Care Act put 
in place.
    Mr. Higgins. Federal legislation fix that?
    Mr. Dodaro. Pardon me?
    Mr. Higgins. In your opinion, could Federal legislation----
    Mr. Dodaro. Yes. I think there ought to be Federal 
legislation to give the state auditors a role.
    Mr. Higgins. Thank you. I have limited time. I'd like to 
move on to Medicare. Both of these programs, it's crucial for 
so many millions of Americans that these programs have long-
term sustainability, and this is my concern. Medicare is a 
critical lifeline for almost 58 million elderly and disabled 
beneficiaries and makes up to 17 percent of total Federal 
spending. It's been a high risk program since 1990. In my 
remaining 41 seconds please advise America what can we do, as 
Members of Congress, to comply with your recommendation, sir, 
and save these vital and important programs?
    Mr. Dodaro. Yes, first of all, Medicare is on an 
unsustainable, long-term fiscal path. By 2026, the trust fund 
for the hospital insurance portion will only have 91 cents to 
pay on the dollar. We have a number of recommendations where 
payments could be equalized between outpatient and the doctor's 
office service, and outpatient at a integrated, consolidated 
facility at a hospital. Right now they're paid on different 
rates, even though you get the same service. There are certain 
cancer hospitals that have been grandfathered in to get higher 
payments. In other areas, we have a long list of 
recommendations we think could help, but this needs 
congressional attention.
    Mr. Higgins. Thank you, sir, for your answer.
    Mr. Chairman, thank you, I yield.
    Ms. Hill. Thank you so much.
    Ms. Pressley?
    Ms. Pressley. Thank you, Madam Chairwoman. And thank you, 
Mr. Dodaro, I appreciate the GAO's comprehensive data 
collection and your insights today on the various high risk 
areas within the Federal Government. In April 2020, the census 
will move to a digital platform to provide online access for 
more than 100 million housing units across the country.
    Although an online system will undoubtedly improve the 
efficiency and accuracy with which the Federal Government can 
collect much needed personal information, it also presents 
substantial challenges for many congressional districts like 
the one that I represent, the Massachusetts Seventh. It is one 
of the most unequal in the country, and I maintain that is 
because it is underresourced, and that is under because of 
undercounting, and the digital divide is still very real.
    Based on the latest census estimates 63 percent of Mass 7 
residents live in hard-to-count neighborhoods, a figure that is 
nearly on par with the 71 percent of people in hard-to-reach 
communities nationwide.
    Mr. Dodaro, would you agree that the intended goal of the 
census is to maintain a fair and accurate count of every person 
living in the U.S.?
    Mr. Dodaro. Yes.
    Ms. Pressley. What factors, aside from limited to no 
internet access, might make communities susceptible to 
undercounting, given the methodological changes in the upcoming 
census?
    Mr. Dodaro. The response rate to the mail survey continues 
to be a problematic area. The response rate has gone from 78 
percent in the 1970 census, to 63 percent in the 2010 census, 
and census is currently estimating that the response rate will 
drop even further to 60 percent. So one of the things that's 
very important is the get-out efforts by the partnership 
efforts in the local communities to get people to fill out the 
form. They will have options to do it in a digital way, but 
they will have paper options as well.
    And so the main thing that can be done is a grassroots 
effort that census is trying to work with, with state and local 
officials, to get people to fill out the form. And that's a 
big--that's a big effort.
    Chris Mihm is our expert in this area. I'll ask if he has 
other suggestions.
    Ms. Pressley. And could you also just give your opinion as 
to whether or not this undercounting also contributes--not only 
does it contribute to the underresourcing and the allocation of 
Federal funds, but does it affect redistricting and 
representation as well?
    Mr. Dodaro. It could, yes.
    Chris?
    Ms. Pressley. Okay. And what steps can we take to mitigate 
undercounting? I'm sorry.
    Mr. Dodaro. Go ahead.
    Ms. Pressley. Let me let you go. Go on, Chris.
    We have two minutes and 26 seconds, let's get it, let's go. 
I'm trying to be effective and efficient here. I'm sorry, Okay, 
let's go.
    Mr. Mihm. Ma'am, I'm not here to interrupt a Member.
    Ms. Pressley. Okay. I'm a fourth Italian, we do that, come 
on.
    Mr. Mihm. The key thing that Census Bureau needs to do on 
the precise issues that you're talking about, is work with 
local communities, work with community organizations in those 
communities to build confidence in the integrity and the 
accuracy of the census. They hire partnership specialists that 
come from the communities, that are sensitive to the types of 
issues that could result in an undercount. Even when they're 
doing the homeless count, they would look to get advocates for 
the homeless population----
    Ms. Pressley. Okay.
    Mr. Mihm [continuing]. that would know where----
    Ms. Pressley. Last question. Giving growing anti-immigrant 
sentiment and xenophobia, Wilbur Ross proposed that we add an 
immigration-status question. This will be the first time in 60 
years that that question has been on the census, and how do you 
see that having--contributing to undercounting given the fear 
that so many immigrants are living under?
    Mr. Mihm. We have haven't looked precisely at that 
question, ma'am, and that is the question of the citizenship 
question. What I can say is that what we have seen in past 
censuses, and what concerns us about this, is, any late changes 
to census design always induce uncertainty and, therefore, 
risk.
    The census has to have hundreds of different operations 
come together perfectly at a precise point in time once every 
decade. Any uncertainty on that is not a good place to be.
    Ms. Pressley. Great segue. So do you feel that you're well 
positioned and prepared to administer the census from an 
operations standpoint and from a staffing standpoint?
    Mr. Dodaro. I'll let Chris elaborate, but there is risk at 
this point. The next six months is critical. There are hundreds 
of security weaknesses, and there are IT systems that haven't 
been fully tested. The census has had to scale back on its test 
and only really done one test in Providence County, Rhode 
Island, when they had multiple sites.
    So there hasn't been enough testing, they're trying new 
procedures, and the combination of all these things leads to a 
risk, which is why we put it on the High Risk List. So there 
needs to be a lot more----
    Ms. Pressley. Thank you.
    Mr. Dodaro [continuing]. done.
    Ms. Pressley. Thank you. And I have 10 seconds left, and 
I'm just--just curious. Again, my district is one of the most 
unequal in the country. It certainly has been impacted by mass 
incarceration. One in four in our households has an 
incarcerated loved one. Do you support incarcerated individuals 
being included according to their home address, not where 
they're incarcerated?
    Mr. Mihm. That's not something--I know what that issue is. 
We haven't actually looked at that from a policy standpoint 
because it is a policy call. But we know it is an issue of some 
controversy within the Census Bureau, but we haven't looked at 
that directly, ma'am.
    Ms. Pressley. Thank you.
    Ms. Hill. Thank you both.
    Mrs. Miller?
    Ms. Pressley. I yield.
    Mrs. Miller. Thank you, Madam Chair.
    And thank you, Mr. Dodaro, for being here today and sharing 
your report with us. You know better than most the importance 
of ensuring our government is running efficiently and that we 
need to be good stewards of our taxpayer dollars.
    One of my goals in Congress is to make sure that government 
is accountable to the people it serves, and your report helps 
us show where we can improve.
    In your report, under ``retained areas,'' you highlighted 
the cost of funding our Nation's infrastructure. As you are 
aware, our Nation's infrastructure is in need of repair and 
improvement. Worn down, broken roads and bridges pose a safety 
risk for travelers across the United States. My own district 
experienced this in 1967 when the Silver Bridge across the Ohio 
River collapsed, killing 46 people.
    Improving our infrastructure ensures that we can connect 
our rural and urban areas and continue to get our goods and 
services across the United States. It also means economic 
development for the communities in our country.
    However, to ensure we repair and maintain our Nation's 
infrastructure requires a significant investment. Given the 
cost of repairs and improvements to our infrastructure, can you 
elaborate more on your findings?
    Mr. Dodaro. Yes. The Highway Trust Fund, for example, on 
surface transportation, has not been able to pay the annual 
amounts necessary to maintain Federal investment and highway 
repairs, for example, since 2008, there's not enough money 
being generated through the tax on gas, to be able to do that. 
So Congress has had to appropriate additional money.
    There's enough money been appropriated to provide funding 
to 2020, 2021. After that, there's a big gap. If you want to 
maintain spending right now, it's about 45, $50 billion a year, 
you'd have to have $158 billion to cover the 2022 to 2029 
period. So the whole concept, initially, of our transportation 
system, particularly the highway portion, was, it was supposed 
to be funded by users, and be self-sufficient over time. That's 
no longer the case. And so the Congress needs to deal with the 
financing aspect of it.
    Ms. Susan Fleming has joined me.
    There's also a standpoint of making sure that the 
investments by state and local levels produce better results 
with the number of discretionary grants and other money that's 
there, and she can talk to you about reforms that are under way 
there.
    Mrs. Miller. Okay. We need to fund our vital 
infrastructure, but according to the DOT, only 15 percent of 
the roads in California are in good condition, and they have 
the second highest gas tax in the country.
    Furthermore, about 20 percent, or $8 billion of all 
Federal, gas-tax revenue doesn't even go to the roads. Before 
we even go to the taxpayers and ask them to give their 
government more hard-earned tax dollars, we have to be sure 
every dollar is being used efficiently and effectively as 
possible. Are there other efficiencies and revenues that you 
think that we could use to fund infrastructure other than gas 
taxes?
    Mr. Dodaro. Well, there's other--if recommendations that we 
have to make more efficient use of the money that's there, 
particularly the discretionary programs given the state and 
local levels, Susan can elaborate.
    Ms. Fleming. You know, I think it is a policy call for 
Congress about whether or not you want to increase revenues 
through additional gas tax or other sources. What we 
recommended is to spend the money wisely and efficiently, and 
we've applauded the fact that the last two surface 
reauthorization bills have required that the Department of 
Transportation move toward a performance-based framework. So 
basically ensuring that we are getting the best value for the 
dollars that are being spent. We're in the early stages of that 
framework. DOT has put out rulemaking, and now the states are 
in the process to establish targets and to evaluate 
performance. So we're optimistic that we're heading in the 
right direction.
    Mrs. Miller. Thank you very much.
    Also, I'd like to shift our focus to the Veterans Health 
Administration. As you are aware, in 2014, a scandal broke at 
the Phoenix VA where it was found out veterans were dying while 
they were waiting for care. We also found the VA was covering 
up its extended wait times. This is unacceptable, and has since 
shed light on other problems that are facing the Veteran Health 
Administration.
    I'm very lucky, in my district, we have a great veterans 
hospital, the Hershel ``Woody'' Williams VA Medical Center. 
However, I want to make sure all veterans across the United 
States receive good access to the care they have earned and 
deserved. What immediate changes need to be made at the 
Veterans Health Administration?
    Mr. Dodaro. Ms. Nikki Clowers is our expert in that area. 
I'll have her respond.
    Mrs. Miller. Thank you.
    Ms. Clowers. Representative, one of the things that we've 
recommended for them to do is to look at their access standards 
that they have for the veterans and make sure that the access 
standards they have in place represents the full lifecycle from 
when the veteran approaches the medical center for appointment, 
to when they're actually seen, to determine how long that is 
taking, and then make adjustments based on that, to ensure that 
they're getting timely access to the care that they need.
    Mrs. Miller. Okay, thank you very much.
    Ms. Hill. I want to thank the gentlelady for her remarks on 
this issue. It's so important, and I couldn't agree more.
    Mr. Green?
    Mr. Green. Thank you, Madam Chairman and Ranking Member.
    Mr. Dodaro, thank you for being here today, and every 
single member of the GAO that's here today, we owe you a big 
round of applause. Thank you for your hard work. Digging into 
this kind of stuff, it's tough to do. It's hard work. Steady 
pencil, some might say ``bean counting,'' but some people would 
get offended by that, so I won't say ``bean counting.'' But 
you're in there digging out the details, and we have to have 
it.
    You know, the Army just recently went through its first 
audit--its first. I think it's older than the Nation, actually, 
the United States Army, and it's just gone through its first 
audit. We need you, we're glad for you, we appreciate you.
    I served as the CEO of a healthcare company. We had about a 
thousand employees when I left the company. And digging in, 
doing the Six Sigma the lean analysis to find where we could 
make operations better was, you know, bread and butter of our 
company. And so I'm especially interested in asking today about 
the VA.
    I'm also a VA patient and a veteran. And as a physician and 
CEO of a healthcare company, watching just the tragedy of the 
things that are happening at the VA, breaks my heart. And so my 
first question is really just, as I understand it, you guys 
have made over the years, the two years that they have been on 
this list, 30 different recommendations for the VA to make 
changes. And I just wondered, what's their responsiveness to 
you in those--on those 30 recommendations?
    Mr. Dodaro. They're working on the individual areas. Ms. 
Nikki Clowers can give you the details. But the responsiveness 
has been slow, and I'm concerned about it. As I mentioned 
earlier, I have met with three VA Secretaries--Secretary 
McDonald, Secretary Shulkin, Secretary Wilkie. I'm encouraged 
by Secretary Wilkie's commitment to work with us in order to 
address, not only our recommendations, but the underlying root 
causes of why they're on the High Risk List, and to develop a 
comprehensive plan for improvement.
    You know, so--and we keep finding the same problems over 
and over. You know, the VA's on our High Risk List for three 
components--healthcare, disability-claims processing, and now 
acquisitions and procurement of medical supplies and products 
that could be more efficient as well.
    They have a huge budget. It's not been for a lack of 
resources that they haven't addressed these problems, in my 
opinion. But Nikki can tell you. We meet with them monthly to 
go over the recommendations, but they need a better plan. They 
need stable leadership. They have some of the most entrenched 
management problems that I've seen across government, and I've 
been around for a long time.
    Mr. Green. That's sad to hear, because they have been here 
since, I think, 1930. You'd think they'd get some of those 
business processes worked out.
    Are they allowed to do cooperative purchasing agreements, 
like other hospitals in the country are, to band together with 
other hospital organizations and purchase in bulk?
    Mr. Dodaro. Yes.
    Mr. Green. They are allowed to do that?
    Mr. Dodaro. Yes.
    Mr. Green. Okay. And they're just not, or----
    Mr. Dodaro. Come on, Michele. She is our expert in 
acquisitions at the VA.
    Mr. Green. Awesome.
    Mr. Dodaro. This is Michele Mackin.
    Mr. Green. This is in my strength zone, so----
    Mr. Dodaro. Okay.
    Mr. Green [continuing]. I'll go in the weeds for a second.
    Ms. Mackin. Strategic sourcing, I think, is what you're 
talking about----
    Mr. Green. Exactly.
    Ms. Mackin [continuing]. and we've actually recommended 
that the individual medical centers do that in order to 
leverage their enormous buying power. I think part of it is a 
very decentralized organization, and each local medical center 
wants to buy what they want to buy for the clinicians at that 
medical center. So they have been a little slower to implement 
that for medical supplies, but for other types of supplies, 
like some IT goods and services, VA has done strategic sourcing 
and saved quite a bit of money.
    Mr. Green. Okay. Well, what drives that decisionmaking in 
the hospital world outside the VA is the hiring of physicians, 
right? So if you're going to purchase a specific spine screw in 
order to get that surgeon to come work at your hospital, that 
shouldn't be a problem with the VA, I wouldn't think, but----
    Mr. Dodaro. Well, what we find, Congressman, when they try 
to launch a purchasing program for medical supplies, surgical 
supplies, they didn't involve the clinicians as much as they 
should have, in deciding what to--what to purchase. And as a 
result, you know, 20 percent of their purchasing items are 
still done on an emergency basis because they don't have the 
competitive process in place to buy in bulk, leverage their 
purchasing power. So they're revamping this again, and we'll 
see if they come up with a better approach.
    Mr. Green. Unfortunately, I think I'm out of time. I've got 
about 57 other questions, but----
    Ms. Hill. Thank you.
    Mr. Green [continuing]. I yield. Thank you for being here.
    Ms. Hill. Thank you, Mr. Green.
    Mr. Dodaro. We're happy to followup with you later, to talk 
about these things.
    Ms. Hill. Thank you. And you might have noticed that was 
not actually a mistake. It was really because I wanted to make 
Mr. Gomez, my colleague from California, wait. But you may now 
speak.
    Mr. Gomez. Thank you. Madam Chair, I always appreciate the 
extra five minutes I'll get at the end of this presentation. 
But before I go on, you know, one of my colleagues was 
questioning your credibility if you bring up climate change, or 
you consider climate change in developing the risk assessment. 
I just did a quick Google search, and I looked up the 
Department of Defense 2014 Climate Change Adaptation Road Map, 
and it says, quote, ``among the future trends that will impact 
our national security is climate change.'' So, if the 
Department of Defense is looking at climate change, I think 
you're in good company, and I think your credibility is well 
intact.
    But I want to turn to the census. It's an important issue 
that's coming up, and you mentioned previously that the 
Department only conducted a full, operational test in just one 
city--Providence, Rhode Island--as you mentioned. And you also 
mentioned some concerns about the--about IT It says, the report 
states, I quote, not fully testing innovations in IT systems as 
designed increases the risk that innovations in IT systems will 
not function as intended during the 2020 census. What are the 
risks the census could face from a lack of adequate testing?
    Mr. Dodaro. Yes. There are many.
    Go ahead, Chris.
    Mr. Mihm. Sir, just to clarify your question, are you 
interested in IT testing or testing overall?
    Mr. Gomez. Testing overall.
    Mr. Mihm. Okay, testing--testing overall is me.
    What the--the big risk there is, as we were discussing with 
the Congresswoman, is that this is a once-a-decade operation, 
and there are innumerable number of procedures that have to 
come together, and if you mess it up, you don't have an 
opportunity to step back and say, Okay, we'll do it again in 
another six months or so. So the testing needs to be done to 
make sure, not just an individual programs work, but they also 
all work together under census-like conditions.
    That's the importance of doing it in different locations 
around the country, with different populations, with different 
census-taking strategies, to make sure that it will work when 
you actually go live, because there is not a do-over.
    Mr. Dodaro. But it could affect the quality and increase 
the cost.
    Mr. Mihm. Absolutely.
    Mr. Gomez. What are the risks of not having tested in the 
rural areas, remote communities, and other types? Same thing, 
you might not have it just function correctly?
    Mr. Dodaro. That's correct. And it's difficult to count in 
rural areas to begin with.
    Mr. Mihm. It's a separate set of challenges. There, sir, is 
that, you know, the key to the census is counting not just each 
individual but counting them at their usual residence. And so 
you need to make sure that you actually locate them where they 
are living, and in some of the most rural parts of the country, 
the different address conventions, you know, P.O. Boxes as 
opposed to actually street numbers.
    The second thing there is that they're going to be--for--
the census takers will be using hand-held computers and that if 
you have internet connectivity problems in some of the more 
rural areas, that can compromise both the quality and the cost 
of the census, as the Controller General mentioned.
    Mr. Gomez. And just also, you had just mentioned that 
cutting the test to save money would actually end up costing 
the U.S. Government more in the long run. Is that correct?
    Mr. Dodaro. It potentially can. Because, I mean, we're very 
diverse country----
    Mr. Gomez. Yes.
    Mr. Dodaro [continuing]. as you know, and just testing in 
one location doesn't really give you a full range of tests. 
Chris mentioned the internet connectivity. It's--it's variable 
across the country, particularly in certain areas, and so 
that's going to be a problem. So we're very concerned that the 
testing hasn't been as robust as you would want to have, 
particularly when you're introducing new concepts into the 
census.
    Mr. Gomez. Do you have a rough estimate of how much it 
would cost if things are delayed or we don't hit our----
    Mr. Dodaro. Well, the current estimate is $15.6 billion, 
and there's some contingencies in there. I'm not sure, you 
know, there will be another estimate coming out from the Bureau 
soon. We've looked at the estimate, the original estimate, that 
was made several years ago, we found, was not comprehensive or 
reliable enough. The current one is pretty good.
    Mr. Gomez. And so, given the reductions in testing, is 
there a risk that the census will not be ready to run an 
accurate and secure 2020 census?
    Mr. Dodaro. There's risk at this point. The next six months 
are critical. I can't give you a final determination, but 
there's certainly enough risk to be concerned.
    Mr. Gomez. Are we further behind today from the 2020--in 
preparation compared to the 2010 census?
    Mr. Dodaro. Yes, I'd like to tell you that the censuses in 
the past have run like clock work, but they haven't. There's 
been problems with almost every one.
    Mr. Gomez. But there----
    Mr. Dodaro. I've been involved since the 1990 census.
    Mr. Gomez. And I noticed that you put it on the 2009 High 
Risk----
    Mr. Dodaro. The only reason it comes off is because it 
actually gets conducted. And, you know, so--you know, I can't 
tell you. But I do think, given the new innovations that they 
want to put in place, that I do think they're behind where I'd 
like to see them be in terms of testing.
    Mr. Gomez. So for my next five minutes--I'm kidding, Madam 
Chair.
    Ms. Hill. Thank you.
    Ms. Hill. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam chairman.
    And, Mr. Dodaro, welcome back. I think this is one of the 
most important hearings our committee has every year, and 
hopefully we can try to double down on working with you to 
implement the recommendations contained in your annual report.
    Ms. Ocasio-Cortez was talking a little bit earlier about 
climate change, and good for you in making it one of your high 
risk categories. I think the science is quite clear. I heard a 
colleague earlier indicate that it was questionable. Maybe for 
him but not for the rest of the world. There is a very strong 
consensus in the scientific community that it is real.
    And as you point out, if you want to argue about the 
theology of climate science, go ahead, but real communities in 
real America and, for that matter, around the world are looking 
at real costs and trying to figure out resilience and retrofit 
to protect themselves from the clear consequences of rising sea 
levels, changing temperatures, crop changes, and even what 
constitutes temperate zones for growing food.
    And so I absolutely salute GAO for doing that. It is not a 
new item for you, but it is imperative that you be immune from 
any political pressure in calling it like you see it.
    Another subject that you and I have talked about, this 
committee has worked with you very closely on, is, of course, 
IT, information technology and the vulnerability of the Federal 
Government and, you know, legacy systems, encryption, how we 
procure and manage our IT assets.
    And I was looking at your report this year, Mr. Dodaro, and 
just looking at the cyber part of the IT subject, you have 700 
GAO recommendations to agencies addressing cybersecurity risks 
that have not yet been implemented. Is that accurate?
    Mr. Dodaro. That is accurate.
    Mr. Connolly. And of those, 35 are priority recommendations 
that you say should receive particular attention from heads of 
key departments. And of those 35, 26 have not been implemented. 
Is that correct?
    Mr. Dodaro. That is correct.
    Mr. Connolly. So why haven't they been implemented, from 
your point of view? What is going on that we are not making the 
kind of progress we should be?
    Mr. Dodaro. I am concerned that it is not a priority for 
the heads of the departments and the agencies, that there is 
not a full understanding of the extent of the vulnerabilities 
there, and that they are not held properly accountable for 
those areas.
    Even where Congress has expressed concerns, in the OPM 
situation, for example, they still haven't responded to all of 
our recommendations in the area.
    Mr. Connolly. Even after the breach----
    Mr. Dodaro. Even after the breach, yes.
    Mr. Connolly [continuing]. that compromised 24 million 
Americans' data. Yes.
    Mr. Dodaro. Right. Right.
    And so I think Congress should provide more rigorous 
oversight and talk to the top leadership of the agencies in 
order to deal with this issue. Because year after year, we keep 
finding the same problems, as well as the inspector generals. 
Now, some of it is part of the not replacing the legacy 
systems. But, again, there needs to be some urgency there as 
well.
    So, I mean, Nick Marinos, our expert, might have other 
reasons, but, from my standpoint, if you don't have the 
leadership and the top direction, you are not going to solve 
this problem, because there are many other competing problems.
    Mr. Marinos. Yes, two quick things, Congressman, that I 
think you are very familiar with.
    One, leadership gets very interested in cybersecurity after 
the incident, unfortunately----
    Mr. Connolly. Although, not in the case of OPM.
    Mr. Marinos. Well, and then what I would also say, too, is 
that we also see the average tenure of CIOs generally be around 
the two-year point too. So I think that is another challenge 
too. You may have committed leadership for a certain period of 
time, but generally they don't stick around too long.
    Mr. Connolly. So, as you know, we work with GAO on the 
quarterly scorecard for compliance with FITARA, which is sort 
of the framework legislation governing a lot of this. Let's 
make sure that we are--we need your help and input in making 
sure that we are adequately addressing the cyber part of it. 
And we will be glad to talk to you further about how we do 
that.
    Mr. Dodaro. Yes, we would be happy to do that. You meant 
the Connolly Issa bill, didn't you?
    Mr. Connolly. Thank you, Mr. Dodaro. You are always welcome 
in this committee.
    Thank you, Madam chair.
    Ms. Hill. Thank you.
    Mr. Cloud?
    Mr. Cloud. Thanks for being here. I really appreciate it, 
really appreciate this topic. This seems to me like this is 
exactly what this committee should be about. And so I 
appreciate you and your team being here.
    And I appreciate you preparing a report on waste, fraud, 
abuse, and mismanagement in government. It is essential, with 
us having a $22 trillion debt and continuing deficit spending, 
that we begin to figure out where the problems are. And you 
seem to outline a lot of them for us.
    I appreciate seeing that some items have come off the list 
and others have improved. I think that is the goal. It is kind 
of like the endangered species list; the goal is to 
rehabilitate and get them off the list eventually. And, in a 
sense, that is what has happened in some areas.
    But there are some areas that have been there since the 
1990's when we first started doing this: the DOD weapons 
systems acquisitions, NASA acquisition management, DOE's 
contract management for national nuclear security 
administration, and Office of Environmental Management--there 
is a mouthful for you--enforcement of tax laws.
    Can you explain some of the challenges and why we are not 
seeing any movement on these?
    Mr. Dodaro. For a number of years, you know, we have looked 
at--let's take the DOD weapons systems. First thing was to get 
better management practices in place. You know, we looked at 
how the private sector develops technologies. And what we found 
was that DOD, in many cases, was not identifying the 
requirements up front and stabilizing the requirements, not 
maturing the technologies before they go into production.
    So, right now, DOD has, based on our recommendations and 
congressional actions, particularly the Acquisition Reform Act 
of 2009, imposed in their requirements best practices. But they 
are not being followed in all cases.
    Now, when they are being followed, and based on our 
recommendations, in the weapons systems area, DOD saved $36 
billion. But, in most cases, they are not following the best 
practices and implementing them properly, as well, over time. 
And, as a result, you get a fact where there are cost overruns, 
there are schedule delays, and, ultimately, less functionality 
gets delivered to the warfighters in the end. So there is an 
ultimate price to be paid in this area.
    So part of it is not going through a disciplined process on 
a consistent basis.
    Mr. Cloud. Right.
    Mr. Dodaro. The same thing's true in the Department of 
Energy. For example, 90 percent of the Department of Energy's 
budget goes to contractors. In a lot of cases, I think the 
contractors have had the upper hand on DOE, and there hasn't 
been enough independent cost estimates that have been done over 
time. When these projects change at DOE, they can change by a 
decade in terms of schedule delays and the costs can increase 
by multiple billions of dollars.
    And so we have gotten them to implement now better cost 
accounting practices, and, actually, we showed an improvement 
in the DOE contracting area.
    NASA had been making better progress, but they have 
regressed. We downgraded them in their leadership commitment. I 
have met with the NASA Administrator. The new human space 
flight programs, Congress isn't getting the full cost 
information. It is not transparent over time, what needs to be 
done. Their portfolio of programs is having more cost overruns 
and schedule delays. The James Webb Telescope, for example----
    Mr. Cloud. Right.
    Mr. Dodaro [continuing]. is years behind, multibillion 
dollars over budget. And so they have put together a new action 
plan now, but it needs to be implemented over time.
    Medicare continues to be problematic, with $48 billion in 
improper payments last year. They are getting better attention 
to this area. They have increased their staff, focused on it. 
But it continues to be very problematic. We have made 
recommendations that they seek legislative authority to do more 
prepayment audits. Because unless you can stop these improper 
payments up front, it is too hard to recover the money 
afterwards.
    And so we have made a lot of recommendations, but these are 
big problems. And we have seen incremental improvements, but 
more needs to be done.
    Mr. Cloud. Yes. If I may, I only have 30 seconds left, 
which is kind of indicative of today's discussion, that we have 
34 major programs that you have identified as high risk and 
just a couple hours to cover them all.
    Do you think it would be helpful--if I could ask a couple 
questions to get them in, do you think it would be helpful for 
this committee to take each one up in a committee hearing?
    Mr. Dodaro. Absolutely.
    Mr. Cloud [continuing]. oversight to it, that would be 
essential?
    Mr. Dodaro. Absolutely. And where we have seen progress, 
congressional hand has been at play.
    Mr. Cloud. Right.
    Mr. Dodaro. So it is instrumental to making these--I am 
happy to come back, and our team, talk about each of these 
areas individually.
    Mr. Cloud. And then one of the criteria that is on this 
list is that it has to be in danger of losing a billion 
dollars, because I guess anything less than that just doesn't 
count as government waste anymore. But is that a helpful 
metric? Or what metric should we be looking at?
    Mr. Dodaro. Well----
    Ms. Hill. The gentleman's time has expired, but you can 
answer the question.
    Mr. Dodaro [continuing]. that is the one quantifiable 
measure we use, but we have many qualitative measures: the 
impact on the economy, on public safety and health, the impact 
on national security and other factors. And so many of the 
areas are on there not solely because of the dollar exposures 
but because of their importance to the American people.
    Mr. Cloud. Thank you. I wish we had more time, but I 
appreciate you being here, you and your team.
    Thanks.
    Ms. Hill. Thank you both.
    I recognize myself for five minutes.
    My questions are a followup around the VA issues. It is a 
huge issue in my district; it is personal for me.
    I am concerned that the VA is failing to make progress on 
long-overdue reforms that are necessary to provide the best 
possible healthcare to more than 9 million veterans. The 
administration has said that veterans health is a priority, but 
this report suggests that actions haven't exactly matched up 
with that.
    The report finds that many of the VA problems stem from a 
lack of clearly established goals. Your report says, quote, 
``Though the Department took steps to establish offices, work 
groups, and initiatives to address its high risk designation, 
many of these efforts are either in the initial stages of 
development or resources have not been allocated.''
    And this is a yes-or-no question. Mr. Dodaro, is the VA 
moving fast enough to address its high risk designation?
    Mr. Dodaro. I don't believe so.
    Ms. Hill. Okay. Why do you believe that resources are not 
being allocated more quickly?
    Mr. Dodaro. Well, they basically have difficulties with 
their resource allocation process, which was one of the reasons 
we put them on the High Risk List.
    Ms. Clowers, who is our expert in this area, can elaborate.
    Ms. Hill. Just briefly.
    Ms. Clowers. Certainly.
    As the Comptroller said, they, in terms of capacity--this 
is the area that you mentioned--there are a number of 
activities that are ongoing, but they really just started in 
the last six months, and we need to watch them mature to make 
sure they have the right resources, both people and attention, 
on these issues.
    Ms. Hill. Okay. Great.
    And is this something that you believe our committee needs 
to be involved in, in addition to----
    Mr. Dodaro. Absolutely.
    Ms. Hill. Okay.
    So, given the lack of an adequate action plan, in your 
report, it states that the VA's action plan did not include all 
goals and substantive actions taken.
    What are the risks of a subpar action plan?
    Mr. Dodaro. The risks are the problems will continue, which 
is what we have seen. Our reports and the report of the 
inspector general from VA continue to find the same type of 
problems regardless of what we look at.
    Ms. Hill. Great.
    The GAO also reported that the VA's Veterans Health 
administration lacked sufficient data to monitor whether 
veterans are getting timely access to the Veterans Choice 
Program. Today's report states that the veterans who are 
referred to the Veterans Choice Program, quote, ``could 
potentially wait for care up to 70 calendar days if the maximum 
amount of time allowed by VA processes is used.''
    Mr. Dodaro, is it true that wait times this long exceed the 
maximum limits under the law?
    Mr. Dodaro. Yes. The maximum limits under the law are 30 
days.
    Ms. Hill. And what do you believe needs to be done around 
this?
    Mr. Dodaro. Well, we have made some recommendations. They 
need to clarify their wait-time rules; they need to train their 
people properly; and they need to followup and monitor 
effectively to make sure that is being adhered to.
    They also need to change their processes. One of the things 
they did with the Choice Act is they involved an intermediary 
between VA and the eventual providers, which just built in an 
additional layer of bureaucracy and delay.
    Ms. Hill. Thank you.
    The VA estimates that every day 20 veterans die by suicide. 
Some veterans have committed suicide at the very VA hospitals 
where they have come to receive care.
    Each of these deaths is a tragedy, and last year the VA 
declared that suicide prevention is its highest clinical 
priority. Just yesterday, President Trump announced a new task 
force to provide recommendations for this ongoing tragedy.
    But the high risk report makes it clear that this is an 
additional problem. Do you agree?
    Mr. Dodaro. Yes. We issued a report; Nikki can talk about 
it. But, you know, they are trying to right the ship now in 
that area and make it a priority, but there was funds that were 
unspent for a period of time back, and--but it needs continued 
attention.
    Ms. Hill. That is what I want to highlight, is that the 
social media and the media outreach campaign around veteran 
suicide prevention had a massive decline, including the VHA's 
contractor for social media content around this issue dropped 
from 339 pieces in 2016 to just 47 pieces in 2018, a decline of 
more than 85 percent. And as many of my colleagues know, 339 
pieces of social media is not a lot, in general.
    And, additionally, the GAO found that the VA expected to 
spend just $1.5 million out of $6.2 million obligated for 
suicide prevention in Fiscal Year 2018. As of September 2018, 
GAO found that the VA had only spent $57,000 of the obligated 
$1.5 million in outreach, making it unlikely that they spent 
much more.
    So today's report concludes that the VA's failure to do 
more aggressive outreach is, quote, ``inconsistent with VHA's 
efforts to reduce veteran suicides,'' which is the VA's highest 
clinical priority. Is that correct?
    Ms. Clowers. It is.
    Ms. Hill. And what additional steps should the VA take to 
improve outreach to veterans and do a better job of preventing 
suicides?
    Ms. Clowers. One of our recommendations was for them to 
clearly define the roles and responsibilities of the leadership 
office there. One of the contributing factors that we saw in 
the decline of the effort was a gap in leadership. So the 
position for that office remained open for a number of months, 
and then they had an acting person in charge. And what VA told 
us was they didn't feel like they had the authority to move 
forward until you saw these efforts decline.
    The other recommendation that we made is for them to 
establish performance targets for their efforts. They do 
collect a number of metrics on their outreach efforts, but they 
lack the targets to know whether it is good or bad. So the 
contractor will tell them there are 20,000 hits on a website, 
but you don't know if that is what they wanted to achieve.
    Ms. Hill. I know I am over. Is there a timeline for these 
improvements? Because veterans are dying at a rate of 20 
veterans per day from suicide.
    Ms. Clowers. VA told us they agreed with the 
recommendations and would implement them in 2019.
    Ms. Hill. Thank you so much.
    Recognizing Mr. Armstrong.
    Mr. Armstrong. Thank you.
    So I am looking at the report, and I want to talk about the 
$23 million that could be economically captured from flared 
gas. And this isn't about environmental--there are lots of 
reasons we don't want to flare natural gas.
    Mr. Dodaro. Right.
    Mr. Armstrong. But I think we can assume that this is gas 
associated with oil wells, because nobody's drilling a gas well 
to flare the gas.
    So one of my questions--and this is one of the things 
either--I have had this conversation; we have dealt with it a 
lot in North Dakota.
    So, today, oil is trading at $56 a barrel. Gas is at $2.88, 
but just for simplicity, we are going to use $3 in MCF. And so 
a typical well in the Bakken is 500/500--500 barrels of oil, 
500 MCF. And typical Federal lease is 20-percent royalty. Is 
that about right?
    Mr. Gaffigan. It depends, but, yes, that is in the 
neighborhood.
    Mr. Armstrong. So, in order to capture that--if a well 
produces 500 barrels a day, 500 MCF a day, the royalty on the 
oil would be $5,600 a day, the royalty on the gas would be $300 
a day. So, in a month, it'd be $168,000 in oil royalties, 
$9,000 in gas. In a year, it would be just around $2 million in 
oil royalties versus $109,000 in royalties on gas.
    And the reason the gas is flared is because the Federal 
Government doesn't build the infrastructure to get the gas, so 
natural companies don't go to get it. But if you are losing 20 
percent, whoever's drilling the oil well is losing 80 percent. 
And so they are making an economic decision to do that.
    So if you shut down that oil well for a day because you 
have to, because the only way to capture the gas is to get a 
pipe in the ground, get a processing plant midstream or 
upstream, so you lose that 500 barrels of oil a day, and you 
turn the well back on the next day, you don't get the oil back 
then. You only get 500--if you shut the well down on Monday, 
you lose 500 barrels. But when you turn it back on on Tuesday, 
you only get 500 barrels of oil again on Tuesday, right? I 
mean, you don't produce twice as much on Tuesday.
    And the reason I ask that is, just purely from a revenue 
collection standpoint, you don't get the money back on the 
royalty for oil and gas until end of life of the oil well. So 
if you have to shut that oil well down for a month to capture 
the gas royalties, you lose all of the oil royalties at the 
same time.
    I mean, am I correct?
    Mr. Gaffigan. So I think you are as good a bean counter as 
we are, in following all that.
    But the point we are making in our report is the methane 
rule, the methane emissions rule, which BLM worked on for a 
number of years. And the point of that was to look where it 
economically made sense and you could bring in the technology 
to reduce the amount of emissions that were vented. So, for 
example, if you had leaks in the system, you would use the 
infrared technology to try to identify that.
    So I think that is what the methane rule was about and we 
talk about in our high risk report. And that rule was developed 
and finalized in November, I believe, and then later revoked by 
an Executive order. And we felt that was a step back, because 
it didn't--and was replaced by another rule which didn't allow 
for that calculation. In other words, it just assumed that it 
was too costly to do it, whereas the rule prior had folks take 
a look at whether it was costly and made sense to do it. That 
was the issue around the methane rule.
    Mr. Armstrong. But you are not putting the technology in. I 
mean, the premise is still the same. Every dollar you lose in 
gas at $3 in MCF on an associated oil well, there is a $56-a-
barrel----
    Mr. Gaffigan. Oh, absolutely. And we know in the Bakken 
that oil is the name of the game. The infrastructure is not 
there. In North Dakota, you know, there was a lot of initial 
boon from the fracking there in the shale, in that play. And 
the concern, even in North Dakota, was to, you know, figure out 
what they could do with the gas.
    And, again, this is a rule that applies across the country. 
And where applicable, the idea was: See if it makes economic 
sense and we have the technology to try to reduce the amount of 
emissions. So it wasn't just in North Dakota; it was across the 
Nation.
    Mr. Armstrong. No, I mean, I understand that. But I think 
we are still talking about associated--I mean, regardless of 
whether it is here or the Eagle Ford or----
    Mr. Gaffigan. Sure.
    Mr. Armstrong [continuing]. the Powder River, it doesn't 
matter where, I mean, when you are talking about gas in this 
context, you are talking about associated gas.
    And when you say ``we'' have the technology, who do you 
mean has the technology? I mean, it is not the Federal 
Government.
    Mr. Gaffigan. No. It is the producer of the oil. It is the 
producer of the oil and natural gas. Sure.
    Mr. Armstrong. And the same--just one more, and then----
    Mr. DeSaulnier.[Presiding.] Please, go ahead.
    Mr. Armstrong. The same premise would, I mean, apply to 
that as well. I mean, if you are losing 20 percent, they are 
losing 80 percent.
    Mr. Gaffigan. Yes. And I don't think--again, I don't think 
the rule necessarily referred to the actual production. If 
there is no market for the natural gas, you are allowed to 
flare it, right? The associated gas.
    Mr. Armstrong. There are a lot of reasons not to flare gas, 
and----
    Mr. Gaffigan. Right.
    Mr. Armstrong [continuing]. and there are a lot of reasons 
not to flare gas.
    Mr. Gaffigan. Right.
    Mr. Armstrong. I mean, when you are dealing with associated 
gas in an oil well, I don't think the economics is one of them.
    Mr. Gaffigan. Yes.
    Mr. DeSaulnier. Mr. Armstrong, I can tell your passion for 
this issue. It is understandable. But your time is up. We are 
going to recognize Ms. Norton.
    Mr. Gaffigan. Well, we would be happy to meet with you 
further to discuss it.
    Mr. DeSaulnier. I am sure he'll take you up on that.
    Mr. Gaffigan. All right. I will bring my calculator.
    Mr. DeSaulnier. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Dodaro, it looks as though the census is off to a very 
tough start. Major litigation involving citizenship status, 
that could affect the census, I believe going to the Supreme 
Court. And all at a time when, for the first time, we will be 
taking the census online. That really would seem to me to 
essentially take you to redesigning how you do the census, but 
let me see if that is the case.
    Any idea of what percentage, what proportion of Americans 
will be going online to fill out their census form?
    Mr. Mihm. Ma'am, I will have to get you that information. 
We will get it to you right after the----
    Ms. Norton. I wish you would. Because when you consider 
that most people are used to the paper census and you are 
having to prepare for online, I am beginning to wonder about 
this census in many ways.
    Mr. Mihm. Yes, Ms. Norton, if people don't respond on the 
census, then they will get a paper form after that. And so they 
will have the two options. But we will get you the answer to 
the question you are asking.
    Ms. Norton. Yes, but I am worried about those who do 
respond. And I am worried about your testing and the delays, 
the compressed time there was for testing. Why was the time 
compressed for testing?
    Mr. Mihm. Initially, they argued that they had some budget 
issues. Now, the budget issues have largely been resolved for 
2018 and 2019. In fact, they have gotten even more than what 
they were looking for. But there were some budget constraints 
in the early years.
    Ms. Norton. Do you have enough funds to do the census 
right, Mr. Dodaro?
    Mr. Dodaro. Yes. The Bureau believes that the funding that 
they have for this year is adequate.
    Ms. Norton. I am interested in whether the delays we have 
experienced will turn up or lead to problems in the census 
going forward. The end-to-end test, as it is called, in 2018, 
did it meet its key milestones?
    Mr. Mihm. It met the key milestones, but it was reduced, 
ma'am, as you mentioned in, you know, the premise to your 
question.
    The biggest challenge that they face going forward is that 
they have all these various operations that have to come 
together at precisely the right moment for a once-a-decade 
operation. And so, just like you are talking about with the 
internet option, any time you are introducing new ideas and new 
ways, even when they make sense, you know, such as like an 
internet option, it does entail a degree of risk.
    And so that is why, throughout the decade, you want to have 
a very robust testing process to make sure that you are testing 
the census under different conditions, different places around 
the country, different population groups, because you want to 
make sure that your testing captures the diversity of the 
Nation.
    Ms. Norton. Well, did you test it online? Did you test it 
with respect to paper ballots? Because it looks like there are 
going to be two censuses.
    Mr. Mihm. Well, the way it will work, ma'am, is that, at 
least under the current design, there will be the--similar to 
the last census, there will be a postcard that will go out 
ahead of time reminding--in that case, it was just alerting 
people, in the 2010 census, alerting you, be on the lookout for 
your form. This time, it will tell you you have the option to 
answer online.
    For those that do not answer online after a period of time, 
I mean, just a matter of a couple of weeks or so, then they 
will be getting the paper. And then after that is when the 
census-takers will come if you have not done either online or 
the paper.
    The big challenge there is just because of all the concerns 
about even a reduced response rate overall, that it is going to 
require more hiring, more followup of the census-takers, a 
population that may not be, just because of survey fatigue and 
other reasons, may not be as willing to or able to respond to 
the census. So that is----
    Ms. Norton. Oh, surely.
    Mr. Mihm [continuing]. going to put an extra burden on what 
they call their nonresponse followup operation.
    Ms. Norton. Surely. It is hard enough getting people to 
respond once. When they may have to respond twice, I must say I 
am concerned.
    Mr. Mihm. Well, the challenge there, ma'am, is exactly what 
you are saying, is that the Census Bureau is going to have in 
place--and they have been working very hard on this--what they 
call the de-duplication. In the risk that one of us would 
respond on the internet and then try and respond on the paper, 
the Census Bureau has to have in place procedures and automated 
processes to make sure that they can de-duplicate. And they 
have been working very hard on that.
    Mr. Dodaro. Right.
    My team also tells me, Representative Norton, that the 
Census Bureau estimates 45 percent of the households will 
respond online.
    Ms. Norton. That is huge.
    Mr. Dodaro. If that happens, that is one way to reduce the 
cost, because you won't have to send people door-to-door to do 
that. So we will have to see what the actual experience is, but 
that is the current estimate.
    Ms. Norton. Your report says, and here I am quoting, that 
the 2020 census lacks a risk assessment and certain best 
scheduling practices.
    Now, given how you have testified about what I will call 
the dual census, is there time to get to best practices to be 
assured that this dual way of doing the census will, in fact, 
work?
    Mr. DeSaulnier. Ms. Norton, your time has expired.
    But the gentleman, please, go ahead and answer.
    Mr. Dodaro. The next six months are critical, 
Representative Norton, and that will tell you whether they are 
going to have adequate testing in time or not. We are 
concerned, but the next six months will tell the tale.
    Ms. Norton. Mr. Chairman, if I could say, I do think, if 
the next six months is when we are going to learn something, 
that we need perhaps in the next three months another hearing.
    Mr. DeSaulnier. I agree.
    I am going to recognize myself for five minutes and agree 
with my friend from Virginia. Mr. Dodaro, this is one of my 
favorite hearings. To your staff, I know you don't get 
acknowledged, in my view, nearly enough for the work you do. 
But I just want to go on the record and acknowledge that, in 
spite of your shameless comment to Mr. Connolly.
    So the Center for Disease Control has done a study on so-
called diseases of despair. They are a very large problem in 
this country. And in relation to that--and we are going to have 
a hearing tomorrow that you will not be at, but Ms. McNeil will 
be here--why--in reading why you put our efforts in to prevent 
drug abuse, why did you put that in the emerging category?
    And I would like to say, too, in our discussions with you 
and the Governors Association, opioids, in the bills that we 
got passed in a bipartisan level, I was able to put three or 
four amendments in there with Republican colleagues about 
metrics and performance standards. We are spending $30 billion 
a year on this. It costs--just the opioid crisis costs us $500 
billion.
    The fact that this is emerging at the same time that we are 
in a bipartisan effort trying to assert ourselves in this 
raises large concerns for me. Could you respond to that, 
please?
    Mr. Dodaro. Sure. Well, you know, one of the factors that 
we consider is public safety. And this is an area that is very 
concerning. It was mentioned earlier that there are 70,000 
deaths from drug overdoses every year. That is 119 people a 
day. And the situation is getting worse, rather than better, 
despite all the efforts.
    For the last two years, for 2017 and 2018, there was no 
national strategy. There was no official in charge of the 
Office of Drug Control Policy. So I became very concerned. And 
I have held forums on this issue where we brought a lot of 
experts together from the provider community, from the 
treatment community, from law enforcement, and we talked about 
the challenges associated with this.
    So I think the challenges are huge. We are doing more work 
in this area. So we put it sort of in a category of, you know, 
we are considering putting this on the High Risk List and that 
we are watching it very closely.
    And if we think that the--like, the national strategy, for 
example, our preliminary observations are it doesn't cover all 
the things you would want to have in a national strategy, you 
know. And our witness will talk about that tomorrow at your 
hearing. But we have already found some deficiencies in that 
national strategy that we think need attention.
    So this is a very worrisome area to people. You know, as a 
parent and now a grandparent, I have worried about this with my 
own children going forward. And so I think it is deserving of 
special attention if it warrants it.
    Mr. DeSaulnier. Well, we will go into this more tomorrow. 
But in relation to previous administrations, going back through 
multiple presidencies, Republican and Democrats, we have put a 
lot of effort nationally, at the state level, at the local 
level into this.
    The report that we will talk about tomorrow is 23 pages, I 
think. There is only a page that refers to metrics and 
performance standards. I thought it was fairly appalling, 
having been involved in this field for some time.
    So it seems to be more than emerging. This is a real--it 
was a crisis before. We have recognized this as a crisis since 
President Reagan was Governor--was President. Sorry. 
Californian. Freudian slip.
    What can we do in more than a hearing tomorrow? We have 
plenty of performance metrics now. The public health system 
does, CDC does, but they are daunting, to make sure that we are 
on top of this.
    And, again, in context of a bipartisan effort, particularly 
on the opioid side, to intervene and support public health 
officials, it strikes me that two years and a lack of 
specificity on performance standards and metrics in reference 
to those that have been built on by previous administrations is 
rather appalling and would make me think it should be high 
risk.
    Mr. Dodaro. Yes. Well, again, we made this determination, 
you know, a couple months ago, before we saw the national 
strategy and had a chance to evaluate it.
    So the one thing I will tell you is that we don't normally 
have to wait a full two years for the next update to put 
something on the High Risk List. I put on a number of issues 
out of cycle to the High Risk List in this area.
    We have 30 open recommendations that need to be addressed 
in this area. And once we have some work underway not only in 
the national strategy but a number of other areas, as soon as 
we finish this body of work this year, I will make a 
determination of whether to officially add it or not.
    Mr. DeSaulnier. Well, I look forward to having further 
conversations outside the committee on this. Some of those 
performance standards asked you and the National Academy of 
Sciences to help with best practices in this regard, to make 
sure that the efforts we have made actually show real results 
as soon as possible. Because the urgency of almost 200 people a 
day losing their lives speaks for itself.
    Mr. Dodaro. I couldn't agree with you more, Congressman.
    Mr. DeSaulnier. Thank you. Thanks again.
    I now want to recognize Ms. Tlaib.
    Ms. Tlaib. Thank you, chairman.
    Thank you. Eighteen years. That is amazing. I have only 
been here two months, and I just want to commend you for 
sticking around for 18 years to run the GAO. I really commend 
you.
    Mr. Dodaro. Well, actually, this is my 46th year at GAO.
    Ms. Tlaib. Oh, it is--they put 18 years.
    Mr. Dodaro. No, I know I look younger, but I----
    Ms. Tlaib. That is amazing. Forty-six.
    Mr. Dodaro. Yes.
    Ms. Tlaib. Congratulations. And I have only heard 
incredible things about you, your integrity. And I appreciate 
that service.
    So I am really concerned about the Environmental Protection 
Agency, the EPA, that it is not meeting its obligation.
    I think, for me, you know, I come from Michigan. And from 
the lack of response with the Flint tragedy that continues 
impacting so many children and families to this day, to the 
fact that I have some of the most polluted ZIP Codes in the 
state of Michigan from, you know, bringing in, piping in the 
tar sands from Canada, and they produce the petroleum coke, and 
the coke/carbon company dumped it on the riverfront, and, as a 
former state legislator, trying to contact the EPA for some 
sort of response.
    And so, when I read part of your report, you identified and 
used the word, I think--you identified the EPA's process for 
assessing and controlling toxic chemicals as a high risk area 
and that you--I think in there is quoted saying ``regressed,'' 
that the EPA's efforts have regressed over the past two years.
    And you should know, this morning, we just had a hearing on 
PFAS and the fact that, even then, everybody recognized it is 
dangerous, it is an impact on public health, we need to do 
something about it, but, again, there seems to be a lack of 
action on the EPA.
    So I am wondering, you know, what is the IRIS program? What 
are some of the things that you are mentioning here? And if you 
can provide some sort of feedback to me, as a legislator, what 
I need to be doing from my end to hold the administration 
accountable.
    Mr. Dodaro. Sure. I will start, and Mr. Gaffigan is our 
expert in this area. He can add.
    First, the IRIS program is the program the EPA uses to 
assess the hazard assessment of the chemicals and actually 
produces a toxicity estimate, a number. And that is then used 
not only by EPA programs in regional offices to then assess 
whether or not to regulate it and how to regulate it, if they 
do, it is used by state and local officials and others. So it 
is really intended to be the starting process for assessing a 
chemical's capabilities.
    Now, one of the changes that we had recommended in the past 
that Congress has finally improved, in the Toxic Substances 
Control Act, to now require EPA, under the new requirements, 
has to approve a chemical in advance. Previous to that, they 
had to prove it was problematic. And so the burden has shifted. 
So the EPA needs to implement the TSCA requirements too, the 
new amendments to the law.
    But the IRIS program also is a starting point for that 
area, and we have a number of recommendations underway. They 
have improved the process, but right now they haven't been 
transparent in how many assessments they are going to do and 
what has happened to assessments that were already through many 
parts of the process. In some cases, they have been assessing 
the process since the 1990's.
    Ms. Tlaib. Yes.
    Mr. Dodaro. And so it is not transparent enough, and it is 
not clear how they are going to apply the resources necessary 
to do this.
    You know, we labeled them as regressed for two reasons. 
One, the leadership of EPA hasn't been as outspoken about this 
as a priority than the previous administration was. And, 
second, they proposed budget cuts for the IRIS program. Now, 
Congress didn't go along with the budget cuts and kept the 
resources at the 2017 levels. But it is not clear how those 
resources are going to be used and how the assessments will be 
prioritized going forward.
    Ms. Tlaib. So, you know, is this about the lack of 
capacity? Or is it, you know--when you say ``since the 
1990's,'' I have heard even other horror things of not being 
able to get something that is toxic on the toxic list for the 
EPA. Is it--you know, because I think it goes beyond the 
capacity. It is also the will or some political courage. Can 
you talk a little bit about that?
    Mr. Dodaro. Sure.
    Mr. Gaffigan. Sure. I think as the Comptroller General 
said, we felt they regressed in the leadership part of things. 
And so we felt all along that there needed to be some 
congressional action to help improve the authorities that EPA 
had to do this, and so the 2016 act did provide them that.
    And so we have been doing a series of work following how 
they are doing in the implementation. And we just released a 
report on Monday that really sort of highlights the importance 
of staying on top of the leadership and ensuring transparency 
throughout the process.
    Very simply, to take the IRIS program, in May 2018, they 
had 20 chemicals on a list ready to go. They had talked. They 
checked in with the program offices. They all said they had 
their--this is what they still wanted. They had the resources 
to do it.
    They were told in June to hold up, by leadership. They were 
told not to work on any of the assessments.
    In August, they sent out a survey to the offices again 
asking, these 20, do you still want them? Survey results said, 
yes, we do.
    The then-leadership later asked, well, prioritize within 
these and limit, you know, to three or four. But they provided 
no criteria for the program offices to decide, well, how do we 
prioritize?
    The next thing they know, there is a list published in 
December, has 11 chemicals on it. Four chemicals which were on 
that list of 20, which were ready for peer review at stage 
four, disappeared. There was no explanation as to what 
happened.
    And so that speaks to the lack of transparency. And that 
really comes from leadership. I think they have an opportunity 
to make decisions, but they need to be transparent about it. 
Otherwise, it raises the questions of, why did this happen?
    Ms. Tlaib. Thank you, Mr. Chairman
    Mr. DeSaulnier. Thank you.
    That is our last member who would like to speak. I want to 
thank you again for your fine work and all your staff's work. 
We really appreciate it. And we appreciate you for the 
testimony today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their responses.
    I ask our witnesses to please respond as promptly as you 
are able.
    Mr. DeSaulnier. This hearing is adjourned.
    [Whereupon, at 5:19 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
